<html>
<title> - [H.A.S.C. No. 111-78]ARMY AND MARINE CORPS RESET REQUIREMENTS (PART I AND II)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-78]

       ARMY AND MARINE CORPS RESET REQUIREMENTS (PARTS I AND II)

                               __________

                             JOINT HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                          MEETING JOINTLY WITH

                    AIR AND LAND FORCES SUBCOMMITTEE

                                  AND

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             HEARINGS HELD

                     JULY 9, AND DECEMBER 10, 2009

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
55-191                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
NEIL ABERCROMBIE, Hawaii             ROB BISHOP, Utah
SILVESTRE REYES, Texas               MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
HANK JOHNSON, Georgia                K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
GLENN NYE, Virginia                  FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        MICHAEL TURNER, Ohio
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
               Vickie Plunkett, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Megan Putnam, Staff Assistant
                                 ------                                

                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
ADAM SMITH, Washington               MARY FALLIN, Oklahoma
MIKE McINTYRE, North Carolina        DUNCAN HUNTER, California
ROBERT A. BRADY, Pennsylvania        JOHN C. FLEMING, Louisiana
JIM COOPER, Tennessee                MIKE COFFMAN, Colorado
JIM MARSHALL, Georgia                W. TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             JEFF MILLER, Florida
GABRIELLE GIFFORDS, Arizona          JOE WILSON, South Carolina
NIKI TSONGAS, Massachusetts          FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        ROB BISHOP, Utah
FRANK M. KRATOVIL, Jr., Maryland     MICHAEL TURNER, Ohio
ERIC J.J. MASSA, New York            TODD RUSSELL PLATTS, Pennsylvania
BOBBY BRIGHT, Alabama
WILLIAM L. OWENS, New York \1\
DAN BOREN, Oklahoma
                 Doug Roach, Professional Staff Member
                 John Wason, Professional Staff Member
                                 ------                                

----------
\1\ Mr. Owens joined the subcommittee on November 20, 2009.
  

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
ERIC J.J. MASSA, New York
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearings:

Thursday, July 9, 2009, Army and Marine Corps Reset Requirements 
  (Part I).......................................................     1
Thursday, December 10, 2009, Army and Marine Corps Reset 
  Requirements (Part II).........................................    55

Appendixes:

Thursday, July 9, 2009...........................................    23
Thursday, December 10, 2009......................................    83
                              ----------                              

                         THURSDAY, JULY 9, 2009
           ARMY AND MARINE CORPS RESET REQUIREMENTS (PART I)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     3
Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     3

                               WITNESSES

Amos, Gen. James F., USMC, Assistant Commandant, U.S. Marine 
  Corps..........................................................     5
Chiarelli, Gen. Peter W., USA, Vice Chief of Staff, U.S. Army....     3

                                APPENDIX

Prepared Statements:

    Abercrombie, Hon. Neil.......................................    29
    Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
      Member, Seapower and Expeditionary Forces Subcommittee.....    35
    Amos, Gen. James F...........................................    43
    Bartlett, Hon. Roscoe G., a Representative from Maryland, 
      Ranking Member, Air and Land Forces Subcommittee...........    34
    Chiarelli, Gen. Peter W......................................    36
    Forbes, Hon. J. Randy........................................    33
    Ortiz, Hon. Solomon P........................................    27
    Taylor, Hon. Gene............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was classified or not available at the time 
      of printing.]

Questions Submitted by Members Post Hearing:

    [See Appendix, Part II, December 10, 2009.]
                              ----------                              

                      THURSDAY, DECEMBER 10, 2009
           ARMY AND MARINE CORPS RESET REQUIREMENTS (PART II)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................    55
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................    55

                               WITNESSES

Amos, Gen. James F., USMC, Assistant Commandant, U.S. Marine 
  Corps..........................................................    57
Chiarelli, Gen. Peter W., USA, Vice Chief of Staff, U.S. Army....    56

                                APPENDIX

Prepared Statements:

    [See Appendix, Part I, July 9, 2009.]

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Taylor...................................................    87

Questions Submitted by Members Post Hearing:

    Mr. Ortiz....................................................    91
 
           ARMY AND MARINE CORPS RESET REQUIREMENTS (PART I)

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Readiness Subcommittee, meeting 
            jointly with Air and Land Forces Subcommittee 
            and Seapower and Expeditionary Forces 
            Subcommittee, Washington, DC, Thursday, July 9, 
            2009.

    The subcommittees met, pursuant to call, at 9:33 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the Readiness Subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. The subcommittee will come to order.
    Today, the Readiness, Air and Land Forces, and Seapower and 
Expeditionary Forces Subcommittee meet to receive testimony on 
the status of the Army and Marine Corps equipment reset 
requirements.
    I thank our distinguished witnesses, the Vice Chief of 
Staff of the Army and the Assistant Commandant of the Marine 
Corps, for appearing before these subcommittees today to 
discuss reset.
    Since 2006, the Congress has authorized more than $55 
billion for the reset of Army equipment and more than $14 
billion for Marine Corps equipment reset. For fiscal year (FY) 
2010, the Army has requested another $11 billion, and the 
Marine Corps is seeking $2 billion.
    What we would like to hear from our witnesses today is, 
what has almost $70 billion bought and what differences has it 
made to Army and Marine Corps warfighting capability and 
overall readiness?
    We also need to understand how long the Army and the Marine 
Corps estimate that they will need to continue to request reset 
funding and at what level. What is the future of reset?
    In support of reset, Army and Marine Corps depots are 
operating at historically high levels. Since the start of 
combat operations in Afghanistan and Iraq, the Army has reset 
more than 480,000 pieces of equipment. And over the past 3 
fiscal years, the Marine Corps has reset more than 60,000 
pieces of equipment and plans to reset almost 41,000 pieces in 
fiscal year 2010.
    As we prepare for Army forces to leave Iraq and as Marine 
forces are increasing in Afghanistan, we need to know how the 
depots are preparing to handle anticipated changes in reset 
workloads.
    The redeployment of U.S. forces and the associated 
equipment from Iraq will be a monumental undertaking. The Army 
alone has more than 31 million items, 100,000 vehicles, 120,000 
containers, and tens of thousands of tons of ammunition in 
Iraq, and must be moved or otherwise disposed.
    The subcommittee needs to understand the role reset will 
play in this retrograde of equipment, and how much it is 
expected to cost, and what planning is being done to ensure 
parts, people and equipment are in place. We need to understand 
all these things so that the Congress can ensure a reset 
continues in a way that best supports our warfighters.
    Drawing down in Iraq at the same time we are building up 
forces in Afghanistan presents daunting logistical challenges. 
Congress cannot ensure the Department of Defense (DOD) and the 
military services have the resources they need to meet those 
challenges unless we have a full understanding of the reset 
requirements.
    Our witnesses today are two distinguished military leaders: 
General Peter W. Chiarelli--he is Vice Chief of Staff of the 
Army--and General James F. Amos, Assistant Commandant of the 
Marine Corps.
    The chair recognizes the distinguished gentleman and my 
friend from Virginia, Mr. Forbes, for any remarks that he would 
like to make.
    Mr. Forbes.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 27.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman. As always, we 
appreciate your leadership in holding this hearing. And I will 
keep my remarks brief.
    I would like to welcome General Chiarelli and General Amos 
back to the committee. Gentlemen, we thank you for being here 
today. And thank you for all that you have done and continue to 
do for our Nation.
    This committee has been actively engaged in the issue that 
impacts the readiness of our forces in light of the ongoing 
combat operations. The Army and Marine Corps reset programs are 
a critical part of that.
    Although the 2010 Overseas Contingency Operations (OCO) 
budget request included $13 billion for Army and Marine Corps 
reset efforts, it is very clear that the request was at best a 
guess. Despite the agreed-to framework for withdrawal in Iraq, 
there is much that is not known, and many critical decisions 
have yet to be made.
    And we must not forget that the framework for withdrawal is 
contingent on conditions on the ground and the capability and 
capacity of the Iraqi security forces.
    This is an important hearing, and I really appreciate the 
chairman asking General Chiarelli and General Amos to join us 
today, because I think they can help us better understand the 
dynamics of the situation we face.
    As General Chiarelli notes in his written testimony, reset 
costs for future years will depend on several factors, such as 
responsible drawdown requirements, the level of force 
commitment, the activity level of those forces, and the amount 
of destroyed, damaged or worn equipment.
    We face an enormous challenge as we work to rebuild, reset, 
modernize, transform, and grow our armed forces while actively 
engaged in combat. The redeployment of forces from Iraq and the 
increase in forces in Afghanistan greatly increased the 
complexity and the resourcing requirements for reset.
    I look forward to the discussion today, and I hope it will 
provide us with a better understanding of the Army and Marine 
Corps efforts to reset the force in light of these challenges.
    Mr. Chairman, thank you for the time, and I yield back.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 33.]
    Mr. Ortiz. I will yield to Mr. Taylor for a short 
statement.

     STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. Thank you, Mr. Chairman. I want to thank our 
very distinguished witnesses. In particular, General Chiarelli, 
I want to make note of your efforts to stay in touch with the 
Seapower Committee, letting us know the progress with the Mine 
Resistant Ambush Protected vehicle (MRAP) program. I think you 
have gone out of your way to do that. I am very, very grateful 
for that.
    I have a statement for the record. In the interest of time, 
I will submit it.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 31.]
    Mr. Ortiz. Mr. Abercrombie.

   STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE FROM 
       HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Mr. Chairman, thank you very much.
    Mr. Forbes, thank you for your observations. I would like 
to submit my statement for the record and move to the main 
business at hand, Mr. Chairman, with your permission.
    [The prepared statement of Mr. Abercrombie can be found in 
the Appendix on page 29.]
    Mr. Ortiz. Mr. Bartlett.
    All the statements will be submitted for the record, 
hearing no objections.
    General Chiarelli, you can proceed with your testimony, and 
then you will be followed by General Amos. So proceed whenever 
you are ready, sir.

STATEMENT OF GEN. PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Well, thank you, Mr. Chairman, Ranking 
Member Forbes.
    Distinguished members of the committee, I thank you for the 
opportunity to appear here today to discuss Army reset in view 
of the fiscal year 2010 annual budget and Overseas Contingency 
Operations supplemental request. I have submitted a statement 
for the record, and I look forward to answering your questions 
at the conclusion of my opening remarks.
    As you know, it has been a busy time for our Nation's 
military. We are at war. We have been at war for the past 
seven-plus years, and that has undeniably put a strain on our 
people and our equipment. In particular, the increased wear and 
tear caused by high usage rates and harsh environments on items 
ranging from individual weapons to helicopters to combat and 
tactical vehicles has taken a significant toll.
    As such, the Army's capability and capacity for reset have 
been critically important. Since the beginning of combat 
operations, the Army has reset over 470,000 items, including 
aircraft, track vehicles, High Mobility Multipurpose Wheeled 
Vehicles (Humvees or HMMWVs), trucks, trailers, small arms, and 
generators.
    As you would expect, over the past several years, we have 
become increasingly proficient at resetting our equipment. In 
particular, we have steadily improved the productivity and 
capacity of Army Materiel Command depots to meet our increased 
maintenance needs.
    Red River Army Depot in Texas, for example, has streamlined 
its Humvee process. Now the depot is turning out 32 mission-
ready Humvees per day, compared to the previous rate of 3 per 
week.
    The commercial pace has also surged to meet the 
requirements we have placed on our partners in industry. I am 
proud of all that has been accomplished.
    However, a tremendous amount of work still remains to be 
done. While we are preparing to draw down operations in Iraq, 
we are continuing to expand our efforts in Afghanistan. This 
will require that at a minimum we maintain the same capability 
and capacity for reset.
    As the Army has consistently pointed out, due to the 
unprecedented stress placed on our equipment as a result of 
this war, reset funding will also be required for a period of 
two to three years beyond the cessation of operations in 
theater.
    Our military must always be prepared to respond to 
contingency operations around the world, and a critical part of 
our reset program will be to rapidly and successfully 
reconfigure the Army's prepositioned stocks and to fill unit 
shortages, including homeland defense and homeland security 
requirements.
    Over the past 7-plus years, with the support of Congress, 
the United States Army has deployed the best manned, equipped, 
trained, and led forces in our 234-year history, and I assure 
the members of this committee that we will continue to 
coordinate with you and your esteemed colleagues on ways we 
might further improve our reset process in the future.
    Mr. Chairman, members of the committee, I thank you again 
for your continued generous support and demonstrated commitment 
to the outstanding men and women of the United States Army and 
their families. I look forward to your questions.
    [The prepared statement of General Chiarelli can be found 
in the Appendix on page 36.]
    Mr. Ortiz. Thank you.
    General Amos.

 STATEMENT OF GEN. JAMES F. AMOS, USMC, ASSISTANT COMMANDANT, 
                       U.S. MARINE CORPS

    General Amos. Thank you, Chairmen and Ranking Members and 
distinguished members of this committee, for the opportunity to 
report to you today about resetting your Marine Corps.
    On behalf of the more than 241,000 active and reserve 
Marines and their families, I would like to extend my 
appreciation for the sustained support Congress has faithfully 
provided its Corps.
    As we begin this hearing, I would like to highlight a few 
points from my written statement.
    As we sit in this hearing room today, there are more than 
32,000 Marines deployed across the globe supporting exercises, 
security cooperation activities, and overseas contingency 
operations. For the first time in over 5 years, we have less 
than 15,000 Marines in Iraq, while an additional 10,600 Marines 
are establishing a presence in the Helmand province of southern 
Afghanistan.
    Combined with our forward-deployed Marine Expeditionary 
Units, your Corps is fulfilling its role as the Nation's 
premier force in readiness. Despite high operational tempo, 
your Marines are resilient, motivated, and performing superbly 
in missions around the globe.
    For the past seven years, they have been fully engaged and 
winning in combat operations as part of a generational struggle 
against global extremism. This sustained effort and performance 
has not come without costs, costs to the institution, to our 
equipment, to our strategic programs, and most importantly to 
our Marines and their families.
    Our forward-deployed units are manned, trained and equipped 
to accomplish their assigned missions, and these units are 
reporting the very highest levels of readiness for those 
missions.
    To ensure our deployed and next-to-deploy units have 
sufficient personnel, equipment and training, we have taxed our 
non-deploying forces and strategic programs as the bill payers.
    Although the current security environment has justified the 
trade-offs we have made to support the long war, we must 
maintain a balanced force capable of responding to crises 
across the full range of military operations.
    The goals of our reset and modernization programs are to 
sustain the current fight by repairing or replacing worn-out 
equipment while enhancing our support to the warfighter by 
reconstituting our force with new or more capable gear. We 
expect to see reset requirements increase as a result of force 
reductions in Iraq and a growing presence in Afghanistan.
    To prepare for the reset of equipment redeploying from 
Iraq, we have created an Operation Iraqi Freedom (OIF) reset 
plan. We have completed the first wave or phase of our 
retrograde from Iraq with over 36,000 principal end items 
having been processed.
    Our second wave is underway right now, with equipment 
flowing from Iraq to Kuwait and back to the United States for 
disposition. We expect a final phase of our retrograde from 
Iraq to be complete by about this time next year. Our reset 
actions will continue beyond next summer, as they include not 
only the retrograde, but also depot and field-level maintenance 
of our retrograded equipment, and procurement of replacement 
equipment as needed.
    The velocity with which we can process and repair our 
returning equipment is directly related to the handling 
capacity at our main port of entry into the United States, 
Blount Island, Florida. This year's unfunded priority list, 
totaling $188 million, includes modest requirements at both 
Blount Island and our depot in Barstow, California, that will, 
if funded, markedly accelerate our equipment processing 
abilities.
    I have appeared before you several times discussing reset 
costs. Thus far, Congress has generously supported our reset 
efforts by appropriating over $14 billion to ensure that 
Marines have the equipment and maintenance resources that they 
need. Continued congressional support of future funding 
requests will be necessary to improve equipment readiness 
levels across the Corps.
    It is hard to predict what the Marine Corps' reset costs 
are going to finally be, because it is difficult to estimate 
the total cost of reconstitution of our gear returning from 
Iraq until that evolution is complete. Complicating reset 
estimates is the recent sizable deployment of Marine forces 
into Afghanistan.
    All of that said, we estimate in the near term that we need 
an additional $6 billion in reset funding.
    As your Marines continue to serve in combat, they need the 
sustained support of the American people and Congress to 
maintain their readiness, to reset the force during an extended 
war, and to modernize such that we can face the challenges of 
the future.
    On behalf of your Marines, I extend our appreciation for 
your faithful support and thank you in advance for your ongoing 
efforts. The Corps understands the value of each dollar 
provided by the American taxpayer and will continue to provide 
maximum return for every dollar spent.
    Today, over 202,000 active and 39,000 reserve Marine forces 
remain ready, relevant and capable as the Nation's force on 
readiness. And with your help, we will stay that way.
    [The prepared statement of General Amos can be found in the 
Appendix on page 43.]
    Mr. Ortiz. Thank you so much. You know, we have to respond 
to our taxpayers. And, of course, we have a great committee and 
members of other subcommittees and two outstanding chairmen and 
ranking members.
    But some of the questions that we are asking today--and one 
of them is, what has the reset funding done--and I think you 
touched on it a little bit--to improve readiness rates across 
the board for the Army and Marine Corps. And maybe both of you 
could specify a little bit, with the money that we have given 
you in the past, how has that helped readiness across the 
board, Army and Marines?
    General Amos. Mr. Chairman, when I look at reset, it is 
sustained readiness. As you know, under the old supplemental 
rules and the old OCO rules, we were not only allowed to reset, 
but we could recap certain pieces of equipment, meaning that we 
could--when we, in fact, brought them back for reset, if we 
recapped a piece of equipment, we not only brought it up to 10/
20 standards. We went beyond that, brought it to zero miles, 
zero hours, and added any additional upgrades to that piece of 
equipment.
    Beginning in fiscal year 2010, we will not be able to do 
that. We will only reset equipment, equipment brought back from 
theater, and it will be brought up to 10/20 standards; 10/20 
standards does mean a piece of equipment that is fully mission 
capable with maybe only minor deficiencies on that piece of 
equipment.
    As we get further into the drawdown, much of the theater-
provided equipment will be brought back. And as that is added 
to units that are back here in the United States and other 
units, that will cause readiness levels to go up.
    But we are not expecting that to happen in the next year or 
so, and it will be totally dependent upon requirements in 
Afghanistan as we draw down in Iraq.
    Mr. Ortiz. I think that we can understand your answers 
better now that we have got more light.
    General Chiarelli. Mr. Chairman.
    General Amos. I thought I was having a vision here.
    Mr. Chairman, thank you for the opportunity to talk about 
this, this issue, because Congress has been very, very generous 
thus far. When I appeared before you the last time, Congress 
had given the Marine Corps $14 billion. We are now--excuse me, 
$12 billion. We are now at $14 billion this year.
    We have seen, as I said in my opening statement and my 
written one, the levels of all the deployed forces, both the 
training readiness and the equipment readiness, is very, very 
high. It is exactly what you would want it to be, supporting 
our efforts there.
    It is the stuff that is back home; it is the equipment back 
home. And I don't want to mislead the committee, because the 
equipment that is back home, with the exception of that that is 
actually working its way through the depots and through the 
repair and reconstitution efforts, I mean, that gear is clearly 
down.
    But the gear that is back at our bases and stations is at a 
very high state of readiness. There is just not enough of it, 
because we have taken that gear that we would normally have 
back in the rear, we have moved it forward to supply the forces 
that have been in Iraq and now in Afghanistan.
    So the gear that is forward is very healthy. The gear that 
is back is healthy. There is just not enough of it.
    What we have received, what you have done in helping us 
with $14 billion thus far, just to give you a sample for what 
we have been able to do, first of all, $1.8 billion of that has 
gone to depot-level maintenance over the last 4 to 5 years. In 
other words, that is all the gear that has worked its way 
through Albany and Barstow, $1.8 billion.
    We bought 6,400 Humvees, and now the newest version, which 
is the expanded capacity vehicle--that is the up-armored Humvee 
that you are seeing out that is being fielded now and in use--
400 mine rollers, 140,000 tactical radio sets. And you might 
say, ``Well, why did you need that? Why didn't you have that 
before the war started?'' We didn't understand we would be in 
the dispersed environment that we are in right now, where we 
have platoons up in the mountains of Afghanistan, 80 Marines 
and 1 second lieutenant, up there and they need communications 
gear, they need satellite communications, they need to be able 
to pass digital information.
    So over the last several years, the reset has helped us 
actually be able to fight the kind of fight that we are in 
right now, both in Afghanistan and Iraq. We bought 12 KC-130Js, 
6 MV-22s, 4 H-1s that have been the replacement airplanes, and 
the list goes on.
    So, sir, it is depot-level maintenance, is a big chunk of 
it, but it has been to reset airplanes that we have lost, 
equipment that we have lost, Humvees that have been blown up, 
seven-ton trucks that have been blown up, and that type of 
thing.
    So we will see our readiness levels back home. Now that we 
are coming out of Iraq, you will begin to see those readiness 
levels next year begin to creep up. I can't tell you how much 
they are going to be, but intuitively it has to, because we 
will be down, we will be out of Iraq, the Marines will be, with 
the exception of just a few by this time next year. The 
equipment will be out of Iraq by this time next year, being 
repaired and going to the home stations. You will see the 
readiness at home station begin to increase next year.
    Mr. Ortiz. You know, the reset of all the equipment back 
from theater, I think this is new guidance. Why the change in 
fiscal year 2010? Maybe you can enlighten us a little bit on 
that.
    General Amos. Sir, I want to make sure I understand your 
question. Why does it----
    Mr. Ortiz. Yes, maybe General Chiarelli can also add to 
that. This is new guidance coming out for only equipment coming 
from theater, and this is new guidance for 2010. Has the new 
policy changed, the new guidance? Are we getting new guidance 
now? Or is it the same? Or----
    General Amos. The overseas contingency operations rules 
have changed. And my understanding, that in fiscal year 2010, 
except for very few systems--and nothing is certain in this 
business--there are different definitions--but as a general 
rule, we will not be able to bring back and recap, and that 
means add upgrades to equipment in 2010.
    We are still doing it in 2009. And we will continue to do 
it throughout this year. But when we start executing the fiscal 
year 2010 program, the new OCO rules do not allow the recap of 
equipment as a general rule.\1\
---------------------------------------------------------------------------
    \1\ The information referred to is incorrect. The statement is 
renounced and corrected in part two of the hearing held on December 10, 
2009.
---------------------------------------------------------------------------
    Mr. Ortiz. We have a good turnout of Members, and I would 
like to give ample time for Members to ask questions.
    Now I yield to my good friend, Mr. Forbes, for any 
questions.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, once again, gentlemen, thank you for being here. And, 
you know, one of the things we are going to see is this 
drawdown of all of our equipment in Iraq. And, General Amos, 
you talked about how that was going to help our readiness here.
    But there is invariably going to be some disputes between 
perhaps U.S. Central Command (CENTCOM) and some of the services 
where that equipment goes, whether it is utilized continually 
in theater, perhaps, with some of the Iraqis or whether it is 
brought back here for the services.
    If there is a dispute there, who arbitrates that, as to the 
drawdown of that equipment?
    General Amos. Sir, within the Marine Corps, it is done two 
places. Number one, the equipment is actually reconciled by our 
forward commander on the ground in Iraq right now, General 
Tryon. And we have got Marine Forces Central Command, which is 
three-star, has his headquarters in Bahrain, as well as his 
headquarters in Tampa.
    So they actually do the first reconciliation. In other 
words, what is on the ground? The gear that is available to 
come out, what needs to come out?
    Just to give you a sense for the magnitude, we changed 
Marine forces and commanders in March of this year. If you took 
100 percent of what we call the equipment density list on the 
ground in Iraq, we have brought out over 51 percent of that 
since March of this year. Just since March, we have moved out 
all 51 percent of what we have had on the ground there for the 
last 5 to 6 years.
    So that was a call by the local commander and by General 
Helland. And then once those numbers are put into the system--
in other words, we know what is coming back--and, actually, the 
decision as to where it is distributed is not at Headquarters 
Marine Corps, but at what we call the Strategic Ground 
Equipment Working Group, and it is all done by virtue of the 
Commandant's priorities.
    So that is handled internally to the Marine Corps. And just 
to give you a sense for what I am talking about, we took 27 
percent of the gear we had--27 percent of the 44,000 end items 
that went into Afghanistan this year to support the operations 
that are underway right now, 27 percent of that actually came 
from Iraq, and that was gear that was new, gear that had been 
refurbished, gear that was kind of sitting up what we call in 
stores up against the fence, that it has been preserved. We 
ship that gear into Afghanistan.
    So that is all done internally to the Marine Corps. Some of 
it is done forward-deployed by the commanders, as it should be. 
Some of it is done back here at Headquarters Marine Corps.
    General Chiarelli. Sir, we recently received a list from 
theater that I have not seen, but is currently being evaluated 
by the Army staff. And the kind of things we would have to 
evaluate is, first, is the equipment excess to our tables of 
organizational equipment?
    If it is excess and not required, then the decision is much 
easier. But when we get to equipment that is part of our table 
of organizational equipment, required equipment, and needed to 
fill units back here in the United States, it becomes a much 
more difficult issue.
    And should DOD be given the authorization to direct that we 
leave that equipment behind, we will, of course, have to ask 
that we be reimbursed for whatever equipment we are told to 
leave behind that will affect a readiness level. And if we are 
not, it will, by definition, show up in readiness levels. We 
will not be as ready in all our units as we were before if we 
can't replace that equipment, and we are required to leave it 
in theater.
    But we will work very, very closely with DOD to ensure that 
as much as possible we can avoid those kinds of situations.
    Mr. Forbes. Just one last question. It is two parts, 
really. But what was the process to develop the budget reset 
funding line? And have the current rules for determining the 
budget request for reset adequately resourced the Army's reset 
requirements?
    General Chiarelli. We believe they have. Given the rules 
have changed for recap, that portion of the budget that would 
normally be used to do that is smaller. But we expect in fiscal 
year 2010 to have to reset a total of 27 Brigade Combat Teams.
    And we believe, even with the drawdown, that will occur 
sometime in fiscal year 2010, we will not see the effects of 
that drawdown in Iraq as quickly as the Marine Corps will see 
that. We believe we have the necessary money for reset to 
handle those brigades coming back in fiscal year 2010.
    Mr. Forbes. Thank you, Mr. Chairman. I yield back.
    Mr. Ortiz. Chairman Taylor.
    Mr. Taylor. General Chiarelli, I know that, by no choice of 
the military, particularly the Marine Corps, General Brogan 
that handled the program, but in order to field the MRAPs as 
quickly as we could, if my memory is, we had five different 
chassis, three different engines on those five different 
chassis, which, considering the part of the world you are 
operating in, had to be a logistical nightmare keeping up with 
the parts.
    I am curious on the vehicle that we are designing for 
Afghanistan, are you going to be able to consolidate your 
chassis more? Are you going to be able to consolidate your 
engines? Or, because of the industrial base problem, are we 
going to have to spread the workload and the engines and 
chassis like we did before?
    General Chiarelli. There is no doubt, sir, that that 
created problems for us. But I have to tell you, hats off go to 
the logisticians who have kept the MRAP Operational Readiness 
(OR) rates, even with 5 different chassis, at over 90 percent, 
both in Iraq and Afghanistan, dipping possibly below 90 percent 
for very short periods of time, but they have just done an 
amazing job, even with those 5 different chassis.
    As you know, the MRAP All-Terrain Vehicle (ATV), as I 
understand it, is sole source. There will be one MRAP ATV. The 
good news is, as you know, we don't have the all-terrain 
capability in those five different models you talk about, but 
both the Army and the Marine Corps are exploring and right now 
adding an upgrade to some of those MRAPs, certain models, that 
will give them all-terrain capability.
    So in my opinion, the decision was the right decision. We 
got five different variants down range. If we had gone to a 
single variant, we would not have gotten as much protection 
down range. We have saved lives, arms and legs with that 
decision.
    It creates logistics issues, but we are working through 
them. And hats off to the logisticians for keeping the OR rates 
up so high.
    Mr. Taylor. My second question for both of you gentlemen 
is, as you do have a monumental task to buy these things, keep 
these things running, fixing things, and I realize it is 
someone else's job to get them to theater and get them out of 
theater, but it wasn't that long ago that the folks from Maersk 
made me aware that they have lost about 130 drivers just 
transiting Pakistan to get their equipment into Afghanistan. 
You know, one of the other contractors I think has lost about 
20 drivers.
    I am curious to what extent the recent events in Pakistan, 
the recent uptick in violence there, has affected your ability 
to get equivalent into or out of Afghanistan. And there is a 
purpose for all this--it is not to put you on the spot--is, if 
we are going to face a situation at some point where we are 
going to need an enormous amount of additional airlift because 
of the problems on the roads, that is where this question is 
leading.
    Are you able to get things through Pakistan in volumes 
sufficient to do your job?
    General Chiarelli. I owe you a rundown of where we are 
today as opposed to where we were in January. My understanding 
is, things have improved significantly. And we are able to get 
equipment in and out of country with far less loss than was 
reported at the first of the year.
    I know that Transportation Command (TRANSCOM) has worked 
contingency operations to ensure, should those lost become 
untenable, that they can, in fact, continue to supply the force 
levels and predicted force levels we are going to have in 
Afghanistan. And I have all the confidence that they will be 
able to do that.
    As for the amount of improvement that we have had in the 
last six to seven months, if I could get that to you to show 
you exactly how it has improved, but I can state with some 
certainty that it has improved. And I feel comfortable and 
confident we will be able to supply our forces.
    Mr. Taylor. General Amos.
    General Amos. Mr. Chairman, it is a little bit easier for 
us in the southern part of Afghanistan. The ships come in--we 
get our equipment really two ways. They either fly it in, goes 
into Kandahar, or now Bastion, now that the airfield at Bastion 
is large enough to accommodate the Marines, or we drive it up, 
it comes in by ship to Karachi and then takes what we call the 
southern route into southern Afghanistan.
    I don't have the numbers of interdictions. I will get that 
for you. That is easy to get. It is my understanding, having 
gone over there recently and talked to the J4, the head 
logistics guy for International Security Assistance Force 
(ISAF), that the southern route is almost--very little 
interdiction going on in the southern route. It is just a 
cleaner, safer way to go.
    [The information referred to is classified and retained in 
the committee files.]
    General Amos. So at our point right now, other than just 
distance, time to distance and physics, it is just--which takes 
time--we are actually, I don't believe, experiencing any 
trouble getting the gear into theater.
    Mr. Taylor. I thank both of you gentleman for what you do 
for our Nation.
    Mr. Chairman.
    Mr. Ortiz. Before I yield to my good friend, Mr. Bartlett, 
I understand that, at the G-8 summit, there was an agreement 
between our President and the Russian president to allow us to 
fly over Russia and help us deliver some of the equipment. It 
maybe is too early. Are you up to date on that?
    General Chiarelli. On my part, Mr. Chairman, only what I 
have read in the press and only my understanding that any time 
you get multiple ways to enter into a very difficult theater 
such as Afghanistan, it cannot be anything but good news that 
we have that ability to do that. But all I have read is press 
reports.
    Mr. Ortiz. General Amos.
    General Amos. Sir, I agree. All I know about that is what I 
have read in the paper. I have not seen anything specific 
within the Department of Defense on it. I did read, though, 
which was encouraging, that the agreement was signed to keep 
Manas open, and Manas is a port of exit for a whole lot of our 
young Marines.
    It is interesting how many of those young kids down in the 
Helmand province understood the value of Manas, and they wanted 
to make sure it stayed open so that they could go home someday. 
But that is very encouraging.
    Mr. Ortiz. And I hope we can work on that, because it would 
be a tremendous asset for us to utilize if this agreement can 
be worked out further. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I want to follow up with a question asked by Mr. Forbes. 
The Army's 2010 request for reset is about $11 billion, of 
which nearly $8 billion, $7.9 billion, is for Operation and 
Maintenance (O&M) and $3.1 billion for Procurement.
    Now, from 2007 to 2010, the O&M portion has been pretty 
constant at about $8 billion, but the Procurement portion has 
dropped to less than 50 percent of what it was in 2007. Now, I 
know 2007 was a bit higher than it might have been because we 
were short in 2006, but at just the time when we need more 
money because of all this reset, now we have less money.
    And if we are going to justify that on the basis of this 
new rule that says that you can't upgrade when you are 
repairing the equipment, then I have a problem with that, 
because what an opportunity we have when it is in there for 
maintenance repair. Why can't we upgrade? That seems to me to 
be very shortsighted, and I am wondering why the money wasn't 
there.
    Did the Army ask for more than $11 billion, $11 billion was 
all you could get?
    General Chiarelli. My understanding is, no, sir, we did 
not. We understood what the new overseas contingency operation 
rules were going to be. That amount, that $3 billion-plus, can 
only--in Procurement--can only be used for washouts or vehicles 
or aircraft that are destroyed.
    And for the most part--although, like all these rules, they 
change--for the most part, the recap or adding on, upgrades to 
equipment is not allowed in fiscal year 2010. And that drove 
down the amount of money that we needed for Procurement.
    Mr. Bartlett. But, sir, why not? Isn't it our goal to have 
a better and better military to support our people? Why 
shouldn't we upgrade? And isn't this a very shortsighted 
program?
    General Chiarelli. Sir, you would have to ask the folks who 
wrote the new rules. I think that it makes a lot of sense to 
upgrade when we can. It is kind of like paving a road. You 
know, it is better to put the sewer system in before you pave 
the road. It is not a good idea to, in fact, pave the road and 
then decide to dig it up to put the sewer system in.
    So when we have equipment in or are able to do that, that 
was a plus and allowed us to recap equipment. But the new rules 
are that we cannot do that.
    Mr. Bartlett. Well, I think Article I, Section 8 of the 
Constitution says that the Congress makes the rules.
    And, Mr. Chairman, I think we need to take a look at that. 
Thank you very much. And I yield back.
    Mr. Ortiz. Chairman Abercrombie.
    Mr. Abercrombie. I want to follow up, General, on what Mr. 
Bartlett just was dealing with when he said that the Congress 
makes the rules. I am not clear from your answer to Mr. 
Bartlett what part of what the Congress wants you to do is 
being thwarted by whoever making these rules. Who made this 
rule?
    General Chiarelli. Sir, my understanding is they come out 
of Office of Management and Budget (OMB).
    Mr. Abercrombie. I am sorry?
    General Chiarelli. Sir, my understanding is they come out 
of OMB. They write----
    Mr. Abercrombie. It is very important to me--you take 
orders from OMB and not from the Defense bill?
    General Chiarelli. I can only tell you what I know right 
now, sir. The rules and--and I don't question who makes rules. 
The rules that we----
    Mr. Abercrombie. Well, maybe rules is the wrong way. I am 
not trying to be argumentative here at all. But this is serious 
business because of the questions I have, have to do with 
inventory and our capacity to actually do an accurate inventory 
so that I can make from--Mr. Bartlett and I, I should say, 
because we do this together, make recommendations to the 
committee--to our subcommittee members and the committee as a 
whole, we try to do this in a way that reflects your needs.
    And if you are telling me that--or telling Mr. Bartlett 
that someone in the Office of Management and Budget is able to 
countermand, I guess, what we are doing, how on Earth are we 
supposed to make an accurate assessment, let alone 
recommendation, to follow up on requests that you are making 
today, let alone what has been made in the past?
    I am not quite sure about your answer. Are you saying that 
your present course of action, when you make decisions with 
regard to the context established by Mr. Bartlett, that you are 
not paying any attention to the Defense bill?
    General Chiarelli. I am not saying that. I am saying----
    Mr. Abercrombie. Then I really need to know what it is that 
we are dealing with here.
    General Chiarelli. I can only tell you what the people that 
I trust to put together our request to Congress have indicated 
to us. And in fiscal year 2010, as a general rule, we are not 
allowed to recap equipment. And that has dropped down the 
amount of money that we requested for Procurement as part of 
reset.
    Mr. Abercrombie. So you don't need additional funds? Is 
that right?
    General Chiarelli. I am telling you----
    Mr. Abercrombie. Because we could reallocate funds. Believe 
me, I have got requests. Mr. Bartlett has requests right now. 
If your answer is, is that you don't need this money and that 
which was presented to us when--whether I was in the minority 
or the majority, because we have been on this subcommittee for 
some period of time now--so those estimates from before were 
inaccurate?
    General Chiarelli. Let me be perfectly clear.
    Mr. Abercrombie. I hope so, because, believe me----
    General Chiarelli. This----
    Mr. Abercrombie. Believe me, I will make some 
recommendations for reallocation. Absolutely, I will.
    General Chiarelli. We are, in fact, able, with the budget 
that we have and what we have requested to you, to do what you 
asked me to come here and talk about today, and that is reset 
our equipment. That is, bring our equipment up to 10/20 
standards, and 10/20 standards meaning that it is fully capable 
to do its mission with minor deficiencies, at best.
    We do not bring it to a recap situation, but we are able to 
reset our equipment exactly as defined with the money that we 
have been given by Congress.
    Mr. Abercrombie. Okay. If that is the case, then, what 
system is in place, then, whether it is from the OMB or 
yourself to accurately assess inventory? The reason that I ask 
this question, in following up on Mr. Bartlett's observations 
and inquiry, is that, just on shipping containers alone, you 
read the Government Accountability Office (GAO) reports--on 
shipping containers alone, we can't get--our subcommittee staff 
is unable to get an accurate answer as to what we need even 
from containers for equipment, because we can't get a handle on 
your inventory.
    What inventory process is in place right now? And do you 
have confidence in it?
    General Chiarelli. I have confidence in our inventory. And 
I have confidence not only that commanders down range, like I 
was twice, are maintaining inventory of both their Table of 
Organization and Equipment (TO&E) equipment that they bring 
over with them, plus the troop-provided equipment.
    We have had many looks at our equipment down range to 
ensure that accountability standards are high. And they are. 
And we feel very, very good that we know what we have got down 
range and what we will, in fact, be bringing back and what is 
in troop-provided or theater-provided equipment that is issued 
to units when they arrive in theater.
    Mr. Abercrombie. So the GAO reports on the capacity for you 
to accurately assess inventory is incorrect?
    General Chiarelli. I believe----
    Mr. Abercrombie. I will send it to you.
    General Chiarelli. Thank you, sir.
    Mr. Abercrombie. And I would appreciate your response. It 
is a serious question, because, again, this involves numbers 
including billions of dollars. Believe me, we are looking right 
now for billions of dollars possibly for reallocation because 
of other demands.
    So if you don't need this money and you are satisfied that 
your inventory assessment is absolutely correct, it seems to me 
I am going to have a hell of a lot more flexibility than I 
thought I had.
    General Chiarelli. We, too, understand the tremendous 
fiscal crisis that our country has gone through, the economic 
situation. And one of the reasons why there is no question, as 
long as we can reset our equipment, we understand that, because 
of fiscal requirements, it may be in the best interest of our 
country as a whole to cut back on the amount of recap we are 
doing. So it did not seem odd to me----
    Mr. Abercrombie. Okay, time. Excuse me. In the fiscal 
interests, is that the basis--have you had conversations with 
these folks at OMB?
    General Chiarelli. I have not, sir.
    Mr. Abercrombie. Who would have had these conversations?
    General Chiarelli. It would have taken place at the Office 
of the Secretary of Defense, OSD.
    Mr. Abercrombie. So the Secretary of Defense is saying that 
you need, at least from my calculations here, approximately $2 
billion less than you said you needed previously with regard to 
reset for equipment on the basis of--what was the phrase you 
used, fiscal discipline or fiscal necessity?
    General Chiarelli. Well, we understand that we all have to 
be very, very careful with the dollars that we spend. And 
people have made a decision that we will not recap equipment in 
fiscal year 2010. And that seems to me to be understandable.
    Mr. Abercrombie. Okay, it is understandable, yes. Do you 
think it is good policy?
    General Chiarelli. If I had the ability to recap equipment, 
if we had the money to recap equipment, I think it would make 
sense to recap equipment.
    Mr. Abercrombie. That is not the question I asked. Do you 
think you need the money to recap, in your professional 
judgment? That is what we are asking for today, not from a 
politician appointed in the OMB. I am asking for your 
professional judgment today with regard--do you need money to 
recap?
    General Chiarelli. If I had the ability to recap, I would 
recap, for all the reasons I have stated.
    Mr. Abercrombie. You think the policy, then, of not being 
able to do that, which is reflected in your--in the numbers 
that are given to us, is not good policy?
    General Chiarelli. I can't say that, and I won't say that. 
And I won't say that because I understand that people that make 
those rules and make those decisions have to take many other 
things into consideration. And that is why I do not----
    Mr. Abercrombie. Yes, they have to take into consideration 
what we say is in the Defense bill, because we are reflecting--
we are trying to reflect--I am trying to help you here, 
because, believe me, if you give me this answer, I want to 
know--and, right now, what you are telling me is, is that, in 
your professional judgment, the rules or the policy or the 
admonitions that you have been given or the direction that you 
were operating under reflects your professional judgment as to 
what the necessities for the Army are right now?
    General Chiarelli. If I had the authority and the ability 
to recap, I would. But I----
    Mr. Abercrombie. Okay. Thank you. If this Congress gives 
you the authority under the Defense bill, then that would 
reflect your professional position that you could use at least 
$13 billion per year, rather than $11 billion?
    General Chiarelli. I can't give you those numbers. I 
cannot----
    Mr. Abercrombie. Well, okay. You don't have to--well, those 
are the numbers we have been given previously.
    General Chiarelli. In previous years.
    Mr. Abercrombie. Yes.
    General Chiarelli. I would have to go back and ask--we just 
don't go and----
    Mr. Abercrombie. I won't go further.
    Mr. Chairman, this is serious business. We are under the 
gun here in the Defense bill to make accurate numbers and put 
them forward for everybody to consider.
    Now, we have to make a decision whether OMB does this, 
because we don't--what the hell, we don't need a committee here 
if somebody down in OMB--it is a political appointment. It is 
all political appointments. And if we are going to do it on the 
basis of what somebody else decides in the Executive is a 
budget number as opposed to what our obligation is, which is to 
provide for you and the people who serve under you and under 
your command, then we have a real dilemma here.
    I have a real dilemma, because I can't accurately--or I 
cannot in conscience say to Chairman Ortiz or to the other 
Members that we are giving a number that adequately responds to 
what you believe to be, in your professional judgment, a 
necessity. Do you understand my motivation here?
    General Chiarelli. I hope you understand mine. I 
understand, also, that you have to take many, many things into 
consideration when putting together our budget, and that is all 
I am saying to you.
    Mr. Abercrombie. Thank you.
    General Chiarelli. We have the money we need to reset the 
equipment, and that is what I am here to talk about today.
    Mr. Ortiz. Thank you. And sometimes, you know, we have to--
we are all a team working together. And sometimes we have to 
depend on other agencies to help out and to kind of a check-
and-balance system.
    But Mr. Abercrombie is right. As long as we can try our 
best to get the best information--because our concern, the 
bottom line is that we want to be in a position to where we can 
help our warriors who are out there. But I am also dependent on 
other agencies to help me put this thing together, but I think 
that he has a very, very valid question.
    And now let me yield to my good friend, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General Chiarelli, thank you for being here. I am so 
grateful to represent Fort Jackson. I trained there 31 years, 
and 3 of my sons have had the privilege and opportunity of 
spending a lot of time at Fort Jackson in training, just a 
great facility.
    And, General Amos, I am so grateful. I also represent 
Parris Island, Marine Corps Air Station, Beaufort Naval 
Hospital, and I know that you have spent significant time in 
our community. Next weekend is the Beaufort Water Festival, and 
that is a time to celebrate the great affection that people in 
the low country have for the Marine Corps. And so, next 
weekend, you are invited to come back home.
    I wanted to let you know, as we talk about reset, I am 
thinking of assembling equipment, retrofitting equipment. To 
me, it has been an incredible success story of how the 
equipment got there in the first place. And hundreds of 
millions of parts and weapons, munitions, vehicles, it is just 
an incredible success story to me.
    And I know, as a parent who had two sons serve in Iraq, I 
always felt like I knew they could get the equipment because of 
what I had seen, and that is that, in visiting Kuwait, I 
visited the Theater Distribution Center. And I saw firsthand--
and I wish the American people know about this--and that is 
that the--down to the smallest part, using a bar code that the 
parts, the different vehicles, the, again, munitions, the 
weapons, that they are monitored using the United Parcel 
Service (UPS)-Federal Express (FedEx) models of delivery.
    They are stored in areas, square miles, with bermed spaces 
so that they can be secure, but yet they can be easily 
recovered and sent straight to the warfighter so that they can 
be protected.
    And so, as we look now at returning the equipment, I am 
counting on the same level of professionalism, and the 
logisticians, I just truly wish the American people knew how 
extraordinary it was of what they did.
    But as we look to the future, I am particularly interested 
in any preference given to the National Guard, given to the 
Reserves. Can the Adjutant Generals and Army and Marine Reserve 
generals and the logisticians develop a list of equipment for 
their missions in training? Is that being done?
    General Amos. Sir, I will take the first stab at that. We 
have, within the Marine Forces Reserve, we look at equipment 
holistically across the Marine Corps. They have what we call a 
training allowance in every Reserve unit across America, which 
is a small slice of what they would need.
    If they had the full thing, if you were an infantry 
battalion, first of all, they are not all co-located, so they 
are spread out across in some cases many, many states. So they 
have a slice of equipment that they can train with and they can 
adequately maintain.
    But we holistically as a Marine Corps, when we start taking 
a look at deploying Reserve forces, and we have got a Reserve 
battalion right now that is in Iraq, and we are cranking 
another one up to go to Afghanistan, they will come together at 
Twentynine Palms, and they will fall in on gear that we have 
there. And then we will ensure that they have the right 
equipment overseas.
    So we look at it holistically. It is not a ``this is 
Reserve equipment and this is that.'' So I don't know whether 
that answers your question, but they are part of the greater 
requirement and reset and kind of rearming and refitting effort 
that the Marine Corps has. I don't know whether that answered 
your question.
    General Chiarelli. Sir, I would add that we are all proud 
of what has happened. And I just need to give this one comment. 
I think it is absolutely amazing, after 7\1/2\ years of war, we 
have operational readiness rates down range that in excess of 
90 percent.
    And it is in no small part due to what you have done for 
us, in allowing us to reset that equipment throughout this 7\1/
2\ years of war. We bring that equipment back; we put it into 
reset for 180 days; and we issue it out to our soldiers.
    Now, when it comes to Reserve components, Reserve 
components have the same priority as Active components. Whoever 
has the highest priority, be it for a homeland defense mission 
or for a mission overseas, regardless of whether it is an 
Active component unit or a Reserve component unit, gets the 
equipment.
    Currently, we are at 83 percent fill for National Guard 
units for critical dual-use equipment that is not only needed 
here for homeland defense-type issues, but down range.
    Some of that dual-use equipment is deployed with some 
Reserve units, which brings down that percentage of fill when 
you look across the entire force. However, most states have 
compacts with other states where they can get at that 
equipment, should it be needed here at home.
    But we have made great progress in filling up Reserve 
component equipment needs across the force, particularly in a 
critical dual-use equipment category, that which is used both 
down range in theater and back home for homeland defense-type 
missions.
    Mr. Wilson. And what you are into, to me, is a challenge 
and an opportunity, particularly for the most modern equipment, 
for Guard and Reserve forces to be able to train, but also, as 
you indicated, dual use, as we have the hurricane season 
approaching the southeastern part of the United States, and we 
want the best equipment for evacuation, recovery and relief.
    A final question is that, General Chiarelli, there has been 
a reset pilot program that has been implemented. Have there 
been any lessons learned?
    General Chiarelli. We have had four different periods where 
we have taken lessons learned from reset pilots to continue to 
improve the system. As you know, based on the Army's Army Force 
Generation Model, as we bring units back, we reset their 
equipment, both their ground tactical vehicles and aviation 
equipment, in that first 180 days.
    The goal here was to give our soldiers and families the 
predictability that, in that 180 days, we would bring all that 
equipment back, reset it, and have it available for those 
soldiers, as they move in, out of reset, that 180-day period 
immediately after they return back home, and into their train 
and ready phase, where they train up for their next deployment.
    We have learned a lot from the reset pilot program and have 
instituted that into the force. And, in fact, we just recently 
conducted a very, very successful reset Rehearsal of Concept 
(ROC) drill under the auspices of the United States Army Forces 
Command (FORSCOM) commander, General Campbell. Over 250 general 
officers got together to look at the entire reset process and 
how we could make it more efficient and provide equipment back 
to the force as quickly as we possibly can.
    Mr. Wilson. I want to commend and thank both of you for 
your professionalism. Thank you very much.
    Mr. Ortiz. Before I yield to Chairman Reyes, I understand 
that we are going to have around 15 votes in the next--which 
means that we might be on the House floor for the next 2 hours. 
And I know that both of you have very important jobs and very 
important responsibilities, so we don't want to keep you here.
    I would suggest to the members of these three subcommittees 
that maybe we can reconvene so that we can continue with this 
hearing later on, because, to keep you waiting for two or three 
hours would be a long time.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. I will try to be brief.
    My question is for General Chiarelli, and it relates to the 
fact that you were still in the planning stages for drawdown of 
U.S. forces from Iraq when the fiscal year 2010 and OCO budget 
requests were submitted.
    My question is, did these requests include adequate funding 
for both the withdrawal and the reset of the forces and the 
equipment that goes along with that? That is number one.
    And number two is, if, in fact, it wasn't, do you foresee 
requesting additional funding for the drawdown in fiscal year 
2010?
    General Chiarelli. Sir, as you know, we will not see a 
drawdown of U.S. forces in Iraq as quickly as the Marines see 
it. And we believe that we have enough money in the fiscal year 
2010 reset request to do the necessary reset we will have to 
do, with an understanding that the elections will take place 
sometime in the January time period, if everything goes, that 
it may be 30 to 90 days after that before we start to see a 
large amount of additional units coming out of Iraq, Army units 
coming out of Iraq.
    And given the time it takes to get to the depots, we feel 
we will be in good shape to continue the necessary reset work, 
even with those forces coming back, and make the adjustments in 
2011.
    As you know, the key to reset is timely funding, because 
timely funding gives us the capability at our depots. It takes 
us about 90 days to bring on additional workers. But it can 
take us as long as 12 to 14 months for some critical long lead 
parts. So the key for us is the timely receipt of funding and 
the availability to go ahead and forecast and look forward and 
get those critical long lead parts.
    We think we are going to be in good shape in 2010 with the 
money that you have so generously--we hope you will so 
generously give us to complete that reset work.
    Mr. Reyes. Thank you, Mr. Chairman. With that, I yield 
back.
    Mr. Ortiz. Yes, I will yield to Mr. Akin for a motion to 
submit something for the record.
    Mr. Akin. Yes, thank you, Mr. Chairman.
    I just wish I could submit my opening statement for the 
record, if I could.
    Mr. Ortiz. Hearing no objection, so ordered.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 35.]
    Mr. Ortiz. And we will going to continue with questions 
until we have about 5 minutes, because--and what we are going 
to do once we reconvene the hearing, because of the votes that 
we are having--we have 10 minutes left right now, right, 10 
minutes left--I would like for Members to know that, when we 
close this hearing today and postpone it, we will start again 
from where we left and the Members will follow on the order 
that we have now.
    Mr. Abercrombie. Mr. Chairman.
    Mr. Ortiz. Yes.
    Mr. Abercrombie. So we will reconvene another day?
    Mr. Ortiz. That is right, in another day. And you will be 
notified by the staff.
    Okay, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, gentlemen, very much. You know, there is 
never a way to express to you the gratitude that all of us feel 
for the lifetime commitment that you have shown for the cause 
of human freedom. I don't think I can repeat that often enough.
    General Chiarelli and General Amos, how many years do you 
expect to have to fund reset costs as a result of the Iraq war? 
And has this been discussed with the current Administration's 
officials, in terms of long-term funding?
    I mean, the point is, I am concerned that we may have to 
continue this process for a significant length of time, and 
perhaps we are not thinking far enough ahead.
    I will direct it to you, General Chiarelli, first.
    General Chiarelli. I will be quick. We have been consistent 
in stating that reset will go on for two to three years after 
the cessation of hostilities. And that has been a consistent 
Army position throughout the 7\1/2\ years of this war.
    General Amos. Sir, it will take between two to three years 
just to--if everything came to all stop, and you brought, 
started moving all the equipment to ports of debarkation, and 
then got it back to America, it will take two to three years to 
get the stuff through the depots.
    That doesn't include procurement with replacement equipment 
that may be in competition in an assembly line somewhere and 
where we fall in behind somebody else's priorities. So those 
things could take three or four years on a procurement 
timeline, but two to three years to get the equipment fixed at 
the depots, and then whatever else time piles on top of that as 
a result of procurement.
    Mr. Franks. Well, Mr. Chairman, a part of the reason for 
the question is just to remind the committee that, you know, 
this drawdown in Iraq should not be considered a bill-payer for 
everything else, because we do have some ongoing 
responsibilities there, especially in terms of the reset in the 
future.
    Let me just quickly ask one other question, because I want 
to give someone else a chance here, so I am not going to go 
through the others. Both of you have discussed disposal and 
replacement of equipment that is beyond repair as part of your 
reset strategy, and I guess this percentage could be fairly 
high.
    Can you discuss for a moment how you plan to dispose of 
unserviceable equipment? I mean, for example, will it be 
disposed of in the area of operations, or will it be shipped 
somewhere else and disposed of? Tell us what the process is 
there and the policy.
    General Chiarelli. I will have to get back to you. My 
understanding is the majority of it would--if it is a washout, 
would be brought back home. It would not be left in theater, 
possibly taken to Kuwait.
    [The information referred to was not available at the time 
of printing.]
    Mr. Franks. Not going to fall into the bad guys' hands?
    General Chiarelli. Absolutely not. Absolutely not.
    General Amos. Sir, unless it is just a pile of scrap metal, 
we are going to bring it home. That is the plan. It may not 
have a cap on it. It may not have a motor in it. But we are 
going to bring it home. And our plan is to get it to Kuwait, 
get it on ships, bring it back to Blount Island, and then 
process it through the depots.
    We have a figure of roughly 65 percent of the value of the 
vehicle. If it costs more than that, then we will discard it 
back here in America. And you go to our depots and they are 
taking pieces off of different vehicles that have been 
discarded to build one. So they are pretty good stewards of the 
money.
    Mr. Franks. Well, again, gentlemen, thank you for your 
gallant service.
    And, Mr. Chairman, I yield back. I hope to give someone 
else another shot at it here.
    Mr. Ortiz. Thank you so much, both of you, for your 
testimony. And I think that we have a lot to learn and a lot to 
do. And the committee staff will let you know when we are going 
to reconvene this meeting with these three subcommittees.
    And at this point, the subcommittees stand recessed.
    [Whereupon, at 10:37 p.m., the subcommittees were 
adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              July 9, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              July 9, 2009

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
           ARMY AND MARINE CORPS RESET REQUIREMENTS (PART II)

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Readiness Subcommittee, meeting 
            jointly with Air and Land Forces Subcommittee 
            and Seapower and Expeditionary Forces 
            Subcommittee, Washington, DC, Thursday, 
            December 10, 2009.

    The subcommittees met, pursuant to call, at 10:09 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Solomon P. Ortiz 
(chairman of the Readiness Subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. The subcommittee will come to order. We are 
limited as to the amount of time that we are going to have 
here. It will be about less than two hours. I know, and I want 
to say that we are sorry that we did not finish this hearing 
when it was supposed to be finished. We were interrupted by 
votes. But thank you so much for joining us today.
    Today the Readiness, Air and Land Forces and Seapower and 
Expeditionary Forces Subcommittee meet to continue our hearing 
on the status of the Army and Marine Corps equipment reset 
requirements. I thank our distinguished witnesses, the Vice 
Chief of Staff of the Army and the Assistant Commandant of the 
Marine Corps, for returning today to discuss reset.
    You will recall that our July hearing was cut short by a 
prolonged series of votes, so today our primary purpose is to 
give those Members who did not get a chance to ask questions in 
July, to give them an opportunity to do so today. But before we 
move to the Members' questions, I would like to ask if any of 
the other chairmen or ranking members would like to make an 
opening statement.
    And we have our subcommittee chairman Mr. Taylor, if you 
would like to make any statement.

     STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. Mr. Chairman, thank you very much. And I 
understand the need for brevity.
    Gentlemen, it has come to my attention that on some of the 
items we are trying to bring home from Iraq, that the Iraqi 
Government, in what appears to be--and I will use the words--
which strikes me as a scam, is demanding importation documents 
on the things we brought to that country before they will issue 
exportation documents. And as I have recently written their 
ambassador and reminded him that there are no importation 
documents in a war zone, and that this whole thing really does 
strike me as a shakedown.
    So I know you were not prepared for this question today, 
but I would ask you at your convenience, hopefully within the 
next couple of weeks, to get back to me as to whether or not 
you have seen any evidence on this on those things that you are 
trying to either redeploy over to Afghanistan or bring back to 
the States.
    Thank you, Mr. Chairman.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Ortiz. Thank you.
    Before we move to Members' questions, I would like to say 
that we are very fortunate to have two outstanding military men 
with us today, and we are happy that you are here with us 
today. As in July we did not finish our hearing, but today we 
are going to hopefully finish because we should be out of here 
before 12:00.
    We have with us today General Peter W. Chiarelli and 
General James Amos, Assistant Commandant of the Marine Corps. 
When the subcommittee met in July, the President had not yet 
announced his strategy for Afghanistan, but much has changed in 
the past five months. To get us started today, could each of 
you please give us a brief summary of what has changed 
regarding the reset requirements for the Army and Marine Corps 
equipment since July when this was the last time you testified 
before our committee.
    Following General Chiarelli's and General Amos' statements, 
we will go directly to Members' questions, and we will name 
those Members who did not have a chance to ask a question last 
time.
    General Chiarelli, whenever you are ready to start your 
testimony, sir.

STATEMENT OF GEN. PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Well, Mr. Chairman, in answer to your 
question, I will tell you that the big thing that has changed 
is 22,000 soldiers additionally being sent to Iraq--to 
Afghanistan, and a requirement for quite a bit of the equipment 
from Iraq coming out of Iraq and out of Army Prepositioned 
Stocks (APS) to be used to support those soldiers as they 
deploy to Afghanistan in the next months ahead. That will mean, 
as we begin the Iraq drawdown in earnest, that there will be 
less equipment coming back to the States for reset.
    But one thing I want to make sure that I clear up is that 
when I initially appeared before the committee, I pledged to 
always provide you with an honest and forthright assessment and 
my best military advice as requested. In keeping with this 
promise, I would like to take this opportunity to correct some 
inaccurate information I provided at the last hearing in 
response to a series of questions posed by Congressman Bartlett 
and Congressman Abercrombie. During my latter exchange, I 
stated my belief that at the time that in fiscal year 2010 as a 
general rule we would not be allowed to recap equipment with 
funds requested in the Overseas Contingency Operations (OCO) 
budget. It was my sincere belief that this policy represented a 
change to OCO ground rules as signed out by the Office of 
Management and Budget (OMB) in March of 2009.
    Overall, the lesser requests for fiscal year 2010 as 
compared to fiscal year 2009 was based primarily on the limited 
amount of equipment expected to be redeployed from theater 
during this period. This was due in part to the realignment of 
equipment from Iraq to Afghanistan, and the retention of 
equipment in Iraq until the planned drawdown of forces is 
underway in that second half of fiscal year 2010 and fiscal 
year 2011.
    I apologize for any confusion, and I will confirm for the 
record, as members of this committee have accurately stated, 
that current rules do allow the Army to use OCO funding to 
recap or upgrade equipment returning from theater if the 
upgrades are war related and there is a production line 
available.

 STATEMENT OF GEN. JAMES F. AMOS, USMC, ASSISTANT COMMANDANT, 
                       U.S. MARINE CORPS

    General Amos. Chairman, thanks for the opportunity to come 
back. I want to tell you what has changed in the landscape 
since we met in the early part of July.
    Before I begin, Chairman Taylor, I had not heard about the 
importation guidance, so we will get back to you on that thing. 
That is breaking news for us, and we will dig through that 
between Pete and I and sort out what is going on on the ground. 
I had not heard that.
    When we spoke the last time in July, I think it was July 
the 9th, the Marine Corps had 15,000 Marines on the ground in 
Iraq, and we were just getting started with--just getting 
started with putting some Marines on the deck in Afghanistan. 
We actually had about 2,500, 2,600 Marines on the deck at that 
point.
    But we had 15,000 Marines on the ground in Iraq, and since 
then, since July of this year, we have redeployed 10,000 of 
those Marines, roughly, 10,000 back home, and we have 
redeployed or taken out of Iraq 97 percent of what we call the 
equipment density list, and that is--that would be a combat 
table of equipment, to put it in kind of common terms. So all 
that equipment that has been building up for 6 or 7 years since 
we went back in February of 2005, we have redeployed 97 percent 
of that equipment out of Iraq.
    We are down to just about 5,000 Marines, and by the time we 
hit January/February of this coming year, we will be down below 
2,000 Marines. And really their job--their job in Iraq is to--
is to facilitate to get that equipment out. So the plan that we 
devised about a year ago is to try to get the equipment out, 
get it back down to Kuwait, get it triaged and then get it on 
ships and back to our depots. And Congress has been very 
generous with OCO funds to help us fund our depot.
    So we had this grand plan until recently. And I want you to 
know that a big chunk of that equipment now that found its way 
to Kuwait and was being triaged and was waiting to go to--get 
on ships when we first started hearing inklings of a plus-up of 
forces in Afghanistan, we took the equipment that we knew was 
serviceable and in good condition and set that off on a lot off 
to the side in Kuwait in anticipation of the President's 
direction. And, in fact, it has happened.
    You might be interested to know that within 24 hours of the 
President's speech that night, the lead elements of 1st 
Battalion, 6th Marines from Camp Lejeune were airborne on 
Marine C-130s, closing in on Afghanistan. That battalion, that 
first surge battalion, will be closed into Afghanistan, people-
wise, by the 20th of December. We will have taken--our 
contribution, our part of the plus-up of the forces in 
Afghanistan is roughly 9,000 Marines and our sailors. We will 
have that force commanded by a two-star general, a Marine 
Expeditionary Force forward, all on the deck and ready to go by 
the end of April.
    So much has changed. As we take a look at our depot-level 
maintenance, we have actually had to release some contractor 
support. We have had to release some temporary employees, and 
we have had to release some folks that were not permanent 
personnel both at Barstow and at Albany simply because the work 
is not going to be there. It will someday, but right now our 
greatest priority is to get the equipment into Afghanistan and 
get it there for the forces that are on the ground.
    My final thing I would like to say is that I want this 
committee to understand that the Commandant's number one 
priority are those forces that are in Afghanistan. We will have 
100 percent of every piece of equipment that they need and all 
the capabilities. We are closing adequate now, and we are going 
across the Marine Corps now to source that equipment to get it 
either in Kuwait or to get it at home stations, and get that 
stuff on ships, and get it up--get it in Afghanistan. But I 
want everybody to know that we will--that those units that are 
going in will be well trained, highly focused on Afghanistan 
operations, and they will be 100 percent equipped. Thank you.
    Mr. Ortiz. Thank you.
    We are going to yield to those Members who were here at the 
last hearing, but did not have a chance to ask questions. And I 
would like now to yield to Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    And thank you, Generals, for being here today and for your 
service.
    My question is about procurement dollars and reset. And I 
certainly understand and support it, but the priority is to 
make sure that those troops and units that are going to 
Afghanistan need to be ready to go 100 percent. My concern, 
though, is on these procurement dollars, especially High 
Mobility Multipurpose Wheeled Vehicles (Humvees or HMMWVs), we 
are down $2 billion from last year's budget, and it has been $5 
billion down over the last 3 years. And it would seem to me 
that--you said, General Amos, someday the money will be there. 
My concern is that someday may be sooner than we want it to be.
    So my question is what part of the workload is going 
unfunded? I go back to the President's budget. I don't think we 
put enough money into the budget, and it is--I think it is a 1 
percent or 1\1/2\ percent increase, which I think needs to be 
greater because with inflation, and you are going to see a 
flatline or decrease in spending. But what portion of the 
workload is going unfunded as a result of these reductions; and 
specifically the HMMWVs, what percentage of them are not going 
to be reset or are just going to--I know the operation 
maintenance accounts are flatlined. Are we just going to be 
patching them up and hopefully not having to use them?
    General Amos. Sir, I will take a stab at it first, and then 
Pete can pile on.
    As it relates to HMMWVs and basically ground tactical 
mobility, the Marine Corps right now is--we have been doing 
this for about two or three years--really trying to just zero 
in on the bull's-eye on just what that balance of ground 
mobility equipment should look like. Two years ago, when I was 
the head of requirements, it was a different picture than it is 
right now. There is no question that HMMWVs, what we call the 
expanded capacity vehicle, the up-armored HMMWV with all of the 
extra equipment on it and safety features, is going to be a 
staple item for the forces. I cannot tell you how many we are 
buying to replace. I don't have that information. I can get you 
that.
    But if I just kind of back out of that just a little bit 
and tell you that within the Marine Corps--and we will take--
the guy who took my job's requirement is he is supposed to sit 
down with us in the January/February time frame and try to give 
us the entire landscape of what the ground tactical vehicle 
strategy will look like in the Marine Corps. As you know, we 
would like to get away from flat-bottom vehicles. The vision 
always was to go to this Joint Light Tactical Vehicle (JLTV). 
The Army and the Marine Corps have partnered on that effort. It 
is not here yet. There are some issues with it. But with that 
vehicle you get a V-shaped hull, and you get--I am going to use 
this loosely--Mine Resistant Ambush Protected (MRAP)-like 
protection. That is, I think, where we would all like to go to 
protect our Marines and soldiers and sailors and airmen. But 
that is out there.
    So we have a dilemma within the Marine Corps, and it is 
near term, about what are we going to do. Are we just going to 
continue to recapitalize and reset with more HMMWVs, or are we 
going to try to find an interim vehicle that has a V-shaped 
hull, that might not be a JLTV yet because it is not developed, 
but we hope to get there someday? That is what we are 
struggling with right now, and we are working through that.
    But on a broader scale, if you take a look at reset dollars 
and reset--the definition of ``reset'' and things that we can 
spend supplemental money on or OCO money on, the things that 
have been destroyed, worn out, have gone beyond their service 
life, they have been blown up, those kinds of things, and when 
I testified the last time, I said Congress had been gracious 
enough to give us I think it was $14 billion at that point to 
help the Marine Corps reset as a result of combat. And I said I 
needed about $20 billion all total within the Marine Corps. So 
I needed about another $6 billion to reset the Marine Corps. 
That wasn't to modernize it or recapitalize it, that was just 
to replace the stuff that is worn out and blown up.
    Well, since I testified in July, that the longer we stay in 
combat, and now we have redeployed to a harsher environment by 
a factor of probably 3 or 4, with mountains and deserts, spread 
out, that figure has jumped for the Marine Corps $10 billion 
for reset and another $5 billion to buy the equipment that we 
had not had to accommodate the lessons learned from this war. 
So it is about a $15 billion bill, sir. And that is a long 
answer, but I think I had to kind of paint the landscape.
    Mr. Shuster. I appreciate that.
    That goes back to one of the points I made. What you are 
saying is you are confirming to me we are not investing enough 
in the procurement, in the reset for the Marine Corps and our 
military in general.
    General Amos. I would say that the 2010 OCO has not been 
approved yet, so I cannot tell you what that is going to look 
like. It is up on the Hill. But prior to this, the former 
supplemental, now OCO money, has for the most part helped us 
recapitalize with regards to reset. That has actually worked. I 
cannot tell you how this is going to work this year in the 2010 
budget.
    Mr. Shuster. I see my time has expired. And, again, I want 
to make the point that I believe in it. Again, it sounds to me 
what you have laid out is that the budget does not provide 
adequately for procurement, and that is something that we in 
Congress need to fight to make sure the funding is there and 
fight the Administration if they are not willing to invest more 
in what we need, as the last thing I want to have is the 
Secretary of Defense having to say to the American people, we 
fight a war with what we have. And I am concerned we are not 
going to have the HMMWVs, and we are not going to have the 
tactical ground forces that we need in the future, God forbid, 
if something else flares up in the world. So thank you very 
much for your answer.
    Mr. Ortiz. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I wonder if both of you could answer--and thank you for 
your service as well to our country. I wonder if both of you 
could answer a question related to the MRAPs and the status of 
depot-level facilities in the continental United States 
(CONUS), and what is being done to deal with this. When do you 
anticipate having a national repair capability and strategy for 
MRAP sustainment?
    General Chiarelli. Well, sir--Congressman Taylor, if I 
could quickly answer as best I can your question. I am riding 
with General Amos. Neither one of us--I have not heard of that 
either. But we do do an Equipment Review Board every two weeks, 
and I am really surprised it didn't come up at that Equipment 
Review Board. So I will ask that question downrange the next 
time we meet, which should be in about a week.
    Mr. Taylor. Thank you, General.
    I am going to supply to Colonel Glaze a copy of the letter 
we sent to the ambassador, and we will have it in his hands 
today. Thank you.
    General Chiarelli. Thank you, sir.
    Sir, I will tell you the Army is looking at establishing 
Red River Army Depot as our national facility for the rebuild 
of the MRAPs. We have initiated a reset pilot program there in 
fiscal year 2010. That pilot program--we have vehicles en route 
to begin that pilot program for reset. They are going to get 5 
MAX Pros and 31 Kamans to begin with to establish that 
capability. And we look at that being full up in fiscal year 
2011.
    We have put money in our budget for the required Operation 
and Maintenance, Army (OMA), almost $58 million for the MRAPs, 
although the MRAP is not a program of record as of yet. It 
meets all the requirements, and we are moving, having 
integrated 3,700 of those into our formations and into our 
tables of organization and equipment. And a lot of the 
sustainment for the MRAP still flows out of the Joint Program 
Office (JPO), which has about $1.7 billion. So I think we are 
embracing the MRAP and doing everything we can to ensure that 
when those vehicles start flowing back out of theater, we are 
ready to accept them and reset them.
    Mr. Coffman. General Amos.
    General Amos. Sir, I know that when I was--the last time, 
probably three months ago, when we were looking at how we were 
going to bring all of this equipment back from Kuwait that I 
talked to in my opening remarks, and MRAP was part of that. It 
has only been within the last six to seven months that the 
Marine Corps has determined that MRAP is actually going to be 
part of the total ground tactical vehicle strategy that I 
referred to just a second ago. There was a period of time where 
we thought it was too big, it was too heavy for us, and it just 
didn't fit our expeditionary kind of flavor. And we have kind 
of come full circle right now. So our anticipation is we were 
going to have 2,346 of these rascals that are going to become 
part of our regular inventory.
    It is not a program of record per se in the Marine Corps 
either. We have been living graciously off contractor logistics 
support that have come from, in our case, Force Protection, 
Incorporated, which is the organization in Charleston that 
builds most of our MRAPs. But we are at a point now where we 
are going to have to get serious within the Marine Corps, and I 
suspect it will find its way to Albany, but I cannot give you a 
firm answer on that right now.
    But we haven't sorted out yet where we are going to do 
that. All of our vehicles that are back in the continental 
United States, and there is a pretty good slice of them for 
training, their bases and stations and training areas like 
Twentynine Palms, they are a long ways away from needing depot-
level repair yet. It is just the ones in Iraq and Afghanistan 
and Kuwait and Bahrain, and we have not brought any of those 
back yet. When we do, we will have a plan for that. We just 
don't have it yet, Congressman.
    Mr. Coffman. Mr. Chairman, thank you. I yield back.
    Mr. Ortiz. Thank you.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    General Amos, a couple of things that you said talking 
about the lightweight vehicles, that is kind of something we 
want, but just kind of keeps hangs out there, what is the 
problem, and what is the delay? And if we are looking at 
spending lots of money to reset, and this is what we want, and 
we are having to make decisions about what we might have to 
use, what is the delay?
    General Amos. Sir, good question. When former Vice Chief of 
the Army and former Assistant Commandant pulled industry 
together about two years ago, they called this thing a 
Manhattan Project, and they had really the kind of heads of 
industry there, and they said, we want you to push technology. 
We want this vehicle to be light enough--in our case something 
around a 13,000-pound vehicle--so we can pick it up with a 
heavy-lift helicopter and it is part of our expeditionary way 
we employ our forces. But we wanted to have that MRAP-like 
protection, and we were hoping that ceramic armor, we were 
hoping that a whole host of things were going to develop and 
give us this little capsule kind of vehicle that had high 
mobility and high protection.
    It is not there yet. We have variants of it out there. 
Different companies have their version of what they hope to 
become the Joint Light Tactical Vehicle, but it doesn't meet 
all the needs yet. It doesn't provide the explosive safety. It 
doesn't necessarily provide, in our case, the weight. You are 
talking vehicles that are
23-, 24,000 pounds. That is not what the Marine Corps is 
interested in. We can't put that on ships. We just don't--we 
can't do that. That is why we are struggling with this Joint 
Light Tactical Vehicle.
    There is a slug of money in the budget for this thing, and 
there are folks working it pretty hard, but it has not 
manifested itself yet. So we find ourselves now with this 
little bit of a gap. What do we do in the meantime? Do we 
continue to buy flat-bottom HMMWVs, or is there an alternative 
out there that can be a gap filler? And we are looking at an 
alternative right now that actually fits on top of a HMMWV 
frame manufactured by an outfit down in North Carolina, and it 
is a capsule, V-shaped hull kind of a thing. So that is kind of 
where we are with it, sir.
    Mr. Kissell. Thank you, General.
    Mr. Chairman, I am not sure there is any additional role 
the committee could play, but it would seem like that would be, 
if there is. And if we could expedite that, it would certainly 
be worth our while.
    General Amos, you also said something to--and I think you 
said maybe $5 billion of lessons learned.
    General Amos. Right.
    Mr. Kissell. Can you expand upon what you meant there?
    General Amos. Sure, I sure can. And let me tell you, I am 
going to get you some--this is actually a good news story. When 
we crossed the border in March of 2003, we were just like 
Pete's soldiers; we were a major land force moving forward to 
engage the enemy in standard kind of place, set kind of 
tactics. As things evolved, we found ourselves settling into 
Iraq and now in Afghanistan--we found ourselves in what 
Secretary Gates calls this hybrid warfare. We found ourselves 
dispersed. We had one infantry battalion in Afghanistan that 
had over 10,000 square miles. So you had basically 1,000 
Marines with 10,000 square miles.
    So what we found now in the kind of environments--this 
hybrid nasty kind of warfare that we think we are going to be 
into for the next couple of decades, it takes a different kind 
of table of equipment, and I will give you an example. We used 
to have 80 of these little handheld radios, personal radios, 
for a 900-Marine infantry battalion. We now have 800 of them. 
We used to have satellite communication (SATCOM) that would 
only go down to the regimental level and maybe down to the 
battalion level. Now we have got platoons, you know, 80 Marines 
up in the mountains in places like Golestan, that have to have 
their SATCOM so that they can communicate, they can receive 
their digital information, their maps and overlays.
    We have increased the amount of crew-served weapons almost 
300 percent, because we are putting--these are .50-caliber 
machine guns and these kinds of things on the tops of HMMWVs. 
When you see the convoys going out, every one of those vehicles 
has got a young soldier or Marine with his head sticking out 
the top with a .50-cal or a 240 Gulf or something like this.
    So these are the lessons learned. So the old table of 
equipment that we started across the border with in March of 
2003 was good then, but now that table of equipment has--and we 
have spent almost a year going through lessons learned, how 
much of this stuff do we need, not gold-plating it. We didn't 
buy enough for all 27 infantry battalions and for the entire 
world, but we did say each infantry battalion is going to need 
to have--instead of 56 vehicle HMMWVs, it will have to have 86 
vehicles that are HMMWVs. And that is what I mean by that. And 
that comes with a cost. We haven't--we haven't--I have talked 
about it in my statements this year and earlier this year, but 
we haven't presented that bill yet, but we have just totaled it 
within the last month, and it is about $5 billion.
    Mr. Kissell. Thank you, sir.
    And, Mr. Chairman, I yield back my time.
    Mr. Ortiz. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman.
    Thanks to both of you for your service and for appearing 
before our committee today, again, on what really is a pretty 
critical issue. I think everyone here on this committee knows 
that since I have been in Congress, I have expressed real 
concerns about the availability of equipment, especially for 
our National Guard, for both training purposes and for their 
State and homeland security responsibilities, and I don't mean 
just in Iowa, but across America.
    Just this week the Iowa National Guard responded to the 
heavy snowstorms, the heavy snowstorm that hit Iowa, and, of 
course, last summer we had the great flood of 2008, and they 
partnered with the Iowa Department of Transportation just 
recently in assisting stranded motorists. This service to our 
State is particularly poignant and, I think, important, given 
the recent announcement that upwards of 3,500 Iowa soldiers 
will be deploying to Afghanistan by the fall of 2010. This will 
mark the largest deployment of Iowa National Guard since World 
War II, and I firmly believe that it is critical that they and 
all members of the Reserve components--and again, not just in 
Iowa, but across the country--have sufficient equipment to 
train on for their overseas mission as well as to respond to 
emergencies at home.
    And I just visited a newly opened readiness center in Iowa 
City on Saturday night, and we are going to have another one in 
Cedar Rapids soon and some other places in my district. Those 
buildings are wonderful, but we have to make sure we have the 
equipment, obviously, and not just for their deployment when 
they deploy overseas, but also for their--as I said, their 
homeland security missions.
    So, General Chiarelli, given the demands being placed on 
Army equipment by the President's strategy in Afghanistan, 
given the amount of the equipment that the National Guard and 
Reserve units left in Iraq at the end of their deployments, the 
question is how will you ensure that Reserve components are 
sufficiently equipped both for training and for their homeland 
responsibilities?
    General Chiarelli. Well, Congressman, the Army has made 
significant progress in equipping the Army National Guard to 
enhance its role both in the homeland defense area and when 
deployed.
    The numbers I show is that we are anticipated to average 
$3.9 billion a year from fiscal year 2002 to 2013, and that is 
a 290 percent increase in equipping the Guard. As you well 
know, most of our formations that are going over to Afghanistan 
today are following in on theater-provided equipment. And for 
the Army, the employment of the MRAP All-Terrain Vehicle (ATV), 
a new vehicle that currently we are buying 6,000 of them, the 
Joint Program Office is, and we expect that number to go up 
with the increase in Afghanistan, will allow most of the Guard 
HMMWVs and some of their medium trucks to remain back when your 
soldiers deploy. These forces that we have coming out of Iraq 
with responsible drawdown will be able to redeploy with their 
equipment and certain items of theater-provided equipment that 
has been used in Iraq as long as that theater-provided 
equipment is not needed in Afghanistan.
    So we feel we are going to continue to be able to make 
progress in equipping our National Guard formations, of course, 
when they are deployed, but most importantly on that critical 
dual-use equipment that they need at home to do their homeland 
requirements.
    Mr. Loebsack. So you are coordinating with the National 
Guard Bureau on these matters as well.
    Mr. Chiarelli. I just talked to Ray Carpenter yesterday 
about our status moving ahead for medium trucks.
    Mr. Loebsack. Thank you.
    And, Mr. Chair, I will yield back the balance of my time.
    Mr. Ortiz. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And, gentlemen, thanks for what you do. And this is kind of 
a burdensome, really detail-oriented job when it comes to this. 
So thank you for everything.
    The question is this: When we talk about--actually let us 
start with an explanation. What is cross-leveling? Could you 
explain what cross-leveling is to me?
    General Chiarelli. Cross-leveling is a requirement that we 
do either in equipment or personnel to fill out formations that 
are not fully filled out with Military Occupational 
Specialities (MOS) or numbers when it comes to personnel or 
with equipment for units that may, in fact, be short equipment.
    Mr. Hunter. So you cross-level units that are going to 
deploy in the near future, and you start doing that at what 
point prior to their deployments?
    General Chiarelli. For National Guard units----
    Mr. Hunter. For Active units.
    General Chiarelli. We are not in a position where we are 
having to cross-level for Active units. We are, in fact--as you 
well know, the Army has adopted a fourth-generation model which 
has us going from reset to train-ready to deploy.
    Mr. Hunter. I actually don't. Could you explain that one?
    General Chiarelli. Yes, I can, sir.
    The Army's Force Generation Model provides for a unit 
returning from deployment to have six months in what we call a 
reset phase. During that time equipment and personnel are, in 
fact, reset. They enter out of that six-month period with 
certain goals for personnel fill and equipment fill to begin 
their train-ready phase that goes on for a minimum of the next 
six months, possibly longer. If they are going to get more than 
12 months ``boots on the ground'' (BOG), it can go 7, 8, 9, 10 
months before they deploy again. Over that time we have minimum 
equipment goals. We attempt to get units to coming out of reset 
for train-ready phase. But I will tell you, given the tempo we 
are on, we continue to fill units as they move toward their 
latest arrival date.
    Mr. Hunter. So can you stick with that plan with this 
surge? I mean, how is the surge affecting that when you have 
units that are not going to have as much dwell time, and you 
are having to reset them sooner; you might not have that 12 
months of dwell time back at home or 18 months? The question is 
basically how does that affect it, and are you going to have to 
cross-level Active units with this surge?
    General Chiarelli. We are not. We are not. Quite frankly, 
with the drawdown in Iraq and the increase in Afghanistan, we 
see about a month, a month and a half where we will have about 
2,000 more soldiers deployed than we have right now. Now, some 
of that is just dependent on the election and when General 
Odierno begins major troop movements out of Iraq. And we expect 
that to occur sometime after the elections in order to meet the 
President's goal of having us down to 50,000 soldiers by 
September of 2010. But because of that drawdown, we only see 
about a month to two month period where we will have more 
soldiers deployed than we have deployed today.
    Mr. Hunter. So it almost evens out?
    General Chiarelli. It almost evens out. And it will go down 
the more soldiers we get out of Iraq.
    Mr. Hunter. So you are fine with the surge when it comes to 
reset--well, you have already said that what you needed has not 
changed much.
    General Chiarelli. Right. And we feel that we have got the 
right amount of money in our reset OCO. We feel we are in 
pretty good shape. We will, in fact, coordinate with Office of 
the Secretary of Defense (OSD) if we see additional 
requirements. But we feel that we are in pretty good shape when 
it comes to reset and the movement of equipment into 
Afghanistan. But the big issue----
    Mr. Hunter. But folks here training, they are going to be 
fine, too, just like normal?
    General Chiarelli. They will be.
    Now, at the same time, the Army is coming off a stop-loss, 
And there are some requirements of coming off a stop-loss that 
are unpredictable. But our very first unit off of stop-loss, 
the 110th Infantry, is looking at about 48 percent of the 
soldiers who would be on stop-loss who have signed up for the 
additional bonus and to complete the rotation for their unit. 
That will add about 200 folks to the rear detachment. But we 
believe with the 21,000 temporary end strength increase that we 
received, that we will be able to fill our formations to 90 to 
95 percent before deployment.
    Mr. Hunter. Thank you, General.
    I yield back the balance of my time. Thank you, Mr. 
Chairman.
    Mr. Ortiz. Thank you.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    General Chiarelli, I am curious to know what sort of legs 
the work being done by Rhonda Cornum, General Cornum, on post-
traumatic growth as opposed to post-traumatic stress and 
thoughts concerning how we reset personnel-wise, how we train, 
how we deal with our soldiers, and the sort of studies that she 
and others are engaged in to try to address the problem of 
mental strain and breakdown--what kind of legs is all that 
getting in the Army?
    General Chiarelli. Well, sir, the program you speak of is 
Comprehensive Soldiers Fitness, and it is a relatively new 
program to increase the resiliency of soldiers from the day 
they enter the Army until the day they leave the Army. We are 
currently in a training phase where we are sending what we call 
master resiliency trainers to the University of Pennsylvania 
where they attend a course and go back to their units.
    There is no doubt in my mind--and I had my first outbrief 
from the National Institute of Mental Health yesterday on the 
$50 million study that they have begun to look at behavioral 
health and suicide in the United States Army. There is no doubt 
in my mind that over time, as comprehensive soldier fitness 
gets set into the force, it will have a huge impact on the 
behavior health, the mental health, and will assist us in 
lowering our suicide rate. There is no doubt in my mind.
    Some of the interesting things--but that is going to take 
time. It is going to take time, given a program that we are 
going to implement for 1.1 million soldiers and their families. 
We will have a module available on line for families after the 
first of the year. It is going to take time for that to get 
totally in place and for us to see resiliency continue to grow 
or start to grow at appreciable rates in our service. I believe 
that----
    Mr. Marshall. Is your view--it sounds like you are pretty 
enthusiastic about the possibility here. Is that widely shared 
at senior levels?
    General Chiarelli. I just left our four-star conference 
this morning. It was one of the chief very first comments to 
the four-stars, and there is great anticipation and support for 
the program because we all realize it is going to have a huge 
impact.
    Mr. Marshall. Why weren't we doing something like this 
previously?
    General Chiarelli. I don't think we had looked at it hard 
enough. I see other areas that we have got to look at harder. 
In the briefing I received yesterday, I found out that soldiers 
who are suffering from post-traumatic stress are six times more 
likely--and that is the general population--to commit suicide 
than those that are not. I know for a fact that the greatest 
single debilitating injury of soldiers returning from Iraq and 
Afghanistan that have in one injury, disqualifying injury, 30 
percent or greater, is post-traumatic stress. And both General 
Amos and I have been working very, very hard to get at both 
post-traumatic stress (PTS) problems within our services and 
traumatic brain injury, which is also--that is my second 
leading problem I have got.
    Mr. Marshall. I guess that is a good segue to General Amos.
    I don't know whether you are familiar with the work that is 
being done by General Cornum, but I have spent a little bit of 
time with her, and I am pretty impressed by what she has to say 
about possibilities here. I am just curious to know whether or 
not the Marine Corps is a tag-along or could be a tag-along or 
is independently pursuing something similar.
    I am very attracted to the idea that in some instances, 
what could turn into post-traumatic stress could, in fact, be 
post-traumatic growth; a person becomes stronger as a result of 
the experiences, the bad experiences, that they have had in 
combat rather than weaker mentally. Any comment from the Marine 
Corps' perspective?
    General Amos. Sir, first of all, I want to assure you that 
unlike probably five years ago, the whole post-traumatic stress 
disorder is taken very, very seriously within the Marine Corps, 
as it is in the Army. We are past the point of manhood on that, 
and I will tell you that at one point I think it was--it was a 
manhood issue. We are long past that because this is a serious, 
serious issue.
    We are not joined with the Army on this effort. I have 
heard pieces of it over the last three or four months, and it 
is something that Pete and I are very close on a whole host of 
other things that we are doing on Post-Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI) protocols and 
the Defense Centers of Excellence (DCOE) effort trying to 
sort--you know, trying to actually get some capability out 
there to heal these kids that have got it. But what we are 
trying to do, I think what Pete is trying to do, is get out 
ahead of it.
    So we are not doing what they are doing, and I will--I will 
tell you what, just sitting there listening to it, it is 
interesting, and I will stick my nose into it.
    Mr. Marshall. I would encourage you, General, just to get 
General Cornum to come in and give you a brief. I was pretty 
impressed the two sessions I had with her at the possibilities 
here. I don't know whether it will work out.
    To the extent that we--it is interesting. You know, it is 
not manly to acknowledge these kinds of problems. To the extent 
that we invite folks to talk about these things, you worry 
there may be some who will be encouraged to talk about them and 
sort of head in that direction. Well, none of us have the kind 
of expertise we need to have to really make that kind of 
judgment, so the kind of studies that the Army is going through 
and with General Cornum's leadership, I think you all should be 
interested in it.
    General Amos. We will do that. And I tell you, there is no 
corner on the market on this PTSD psychological health thing. 
There is no panacea on this thing. We have been looking for 
one. So I take your advice on it, sir, and I will do that.
    Mr. Marshall. Thank you, sir.
    Thank you, Mr. Chairman, for the indulgence.
    Mr. Ortiz. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to get parochial and talk about the Anniston Depot, 
which is in my district. I would like to know if you could tell 
me a little bit about when, how and what maintenance standards 
you plan to reset the combat vehicles coming back from Iraq?
    General Chiarelli. Sir, we plan on resetting every single 
combat vehicle that comes back to Iraq. Much equipment will be 
reset, and some will be recapped depending on the model. This 
year or next year a majority of our HMMWVs coming back will, in 
fact, be recapped. We have very few other lines that will 
require a recap, but they will receive a full reset, and we 
believe that we have what we need to do that.
    Mr. Rogers. Over what timeline do you see most of those 
combat vehicles coming back.
    General Chiarelli. That is difficult for me to tell you. 
Given the requirement, the additional requirement, in 
Afghanistan, the flow will, in fact, come out of Iran as 
planned. I honestly believe that. But some of the equipment 
that we expected to come back into the United States for full 
reset will be refurbished and redirected to Afghanistan to meet 
the requirements in Afghanistan.
    Mr. Rogers. But all of the combat vehicles eventually you 
plan to bring back either--take out of Iraq and either take 
them to Afghanistan or bring them back for reset or recap?
    General Chiarelli. We plan to reset every vehicle that 
comes out of Iraq or Afghanistan and comes back to the United 
States. And as we have stated, and I think it has been true, 
everyone who has sat in front of this committee and every other 
committee, the Army believes that will be at a minimum a two-
year period after hostilities end before we get complete with 
that reset.
    Mr. Rogers. One of the reasons I asked that last question 
is that, as you know, earlier this week there was an article in 
the Washington Post about leaving a lot of equipment in Iraq, 
and was curious if you could talk a little bit about the 
thought process as to what you do leave and don't leave. I 
understand that the commander is allowed to leave up to $30 
million worth of equipment from each facility, and that is up 
from what had been a $2 million threshold. What kind of 
equipment are you going to leave over there and why?
    General Chiarelli. Most of the equipment you speak of, sir, 
is, in fact, not standard equipment. And all of the equipment 
you speak of, unless it is, in fact, excess to the United 
States Army, is equipment that is non-economically viable to 
bring back.
    I noticed in that same article a comment about temporary 
buildings. We just can't get temporary buildings out of Iraq, 
down to Kuwait and into Afghanistan in any shape where they 
would serve any interest for anyone in Afghanistan.
    But I can tell you even with the limited drawdown that has 
come out of Iraq, the last number that I saw is that 27,000 
pieces of equipment have moved from Iraq to Afghanistan to meet 
requirements in Afghanistan. And I chair, along with the Army 
Materiel Command (AMC) Commander, who has sent her three-star 
downrange to work with General Webster, our 3rd Army Commander, 
to work through these issues--we chair every two weeks, General 
Dunwoody and myself, a video teleconference with all of the 
players. It talks about every single Foreign Military Sale 
(FMS) case; where equipment is going that is coming out of 
Iraq, and we are ahead of schedule right now with the drawdown 
of that equipment; and what pieces need to go to Afghanistan; 
and what are the requirements of the Iraqis in order to get 
their military to a minimal, acceptable level so we can turn 
everything over to them.
    Mr. Rogers. Thank you, Mr. Chairman. I yield back.
    Mr. Ortiz. Mr. McIntyre.
    Mr. McIntyre. Thank you very much, Mr. Chairman.
    And thank you, gentlemen, for your great service to our 
country.
    General Amos, I wanted to ask on your comments about 
aircraft in page six of your testimony, you say that we are 
nearly tripling the utilization rates of our workhorses, and 
then you go through the FA-18C and D, the KC-130 aerial refuel 
platform, the EA-6B electronic warfare craft, and then you say 
even the new MV-22 Osprey. I know the Osprey now has been put 
into active service and utilized more widely.
    Can you update us on exactly how the Osprey is performing, 
given the concerns historically with the performance of that 
aircraft, now that is being more fully deployed? Can you tell 
us how that is helping you? Because later in that same 
paragraph you mentioned that you are short 248 aircraft across 
all type model series. Is the Osprey helping bolster that, or 
are you still short of the Osprey you need?
    General Amos. Sir, we have about half the Ospreys we need. 
We have just finished fleshing out the squadrons on the East 
Coast down at the Marine Corps Station New River in just this 
past year, and we are just now in the process of transitioning 
out to the West Coast a Marine Air Corps Station Miramar with 
the stand-up of the 1st Osprey Squadron. The airplanes are not 
out there yet, but the squadron has--this transition between 
the old CH-46 helicopter, which has been our workhorse and we 
have had in service for well over 40 years, we stand those 
squadrons down, roll the flag up, take 60 percent of the people 
in that squadron, add another 40 percent of new guys and gals, 
and we send them through 6 months of Osprey training, and then 
one day we unfurl that flag, and we have a stand-up ceremony, 
and that is kind of where we are out on the West Coast right 
now.
    So we are about--we are actually not even halfway through 
the transition of the CH-46s to the Ospreys. The Osprey has 
made three combat deployments now. It has had three deployments 
to Iraq. It just came off the 22nd Marine Expeditionary Unit 
(MEU). Just within the last--in fact, that Marine Expeditionary 
Unit just pulled into the East Coast this past week. We took 
those 10 airplanes off of that--off of that Marine 
Expeditionary, the MEU. We took those 10 Ospreys off and flew 
them into Camp Leatherneck there in Afghanistan. We took the 
whole--we took a squadron that had already been to combat in 
Iraq, took that squadron and flew them into Afghanistan, and 
they fell in on top of those 10 airplanes.
    So today we have an Osprey squadron, 10 airplanes. We are 
about to put two more in there once we figure out how we are 
going to get them over there. But we have got an Osprey 
squadron that has been flying in Afghanistan now for just a 
little over a month. By all accounts--and I watch this very 
closely, having been at the birth of this program--it is 
performing all of its missions really, really well.
    We are struggling right now with availability of the 
airplane. For instance, in Iraq, those 18 months of deployment, 
those 3 combat deployments, 62.8 percent mission capable was 
the percentage for those airplanes. On the Marine Expeditionary 
Unit, the one that just gave up those 10 airplanes and they 
flew into Afghanistan, they were 65.9 percent for the mission 
capable for their deployment. And that sounds--I mean, that is 
certainly unacceptable to us, but I think it is important to 
know, because the program had been drug out for so long. We 
really have--just in the last 2 years, we have got over 50 
percent of the total Osprey flight time that has ever been 
logged on that airplane from the time it was conceived and came 
off many years ago off the assembly line, just in the last 2 
years. The bulk of that has been forward deployed in combat.
    So we are learning, we are basically learning the lessons 
of maintenance, we are learning there are suppliers, we are 
learning the lessons on equipment reliability and 
maintainability that probably should have been learned 5 or 6 
or 10 years ago. They weren't. So we are working very closely 
right now with industry. We have got a plan. We know where we 
are right now. We have got a plan to rectify this to get our 
availability back up in the 70s and 80 percent.
    But the airplane itself hasn't failed to make a single 
mission either in the 18 months in Iraq or on the Marine 
Expeditionary Unit, and I anticipate it is going to be the same 
thing in Afghanistan. It is really performing well. And it does 
the kind of things, when you have a casualty evacuation out of 
on the Iranian border with a Special Operations Unit or 
whatever, you can now get that soldiers or Marines or SEALs--
you can get them to a hospital pretty quickly in that airplane. 
So it is going to be a game changer in Afghanistan. It just got 
there.
    Mr. McIntyre. Thank you. That was very good to hear.
    I went to the Osprey simulator training when that was put 
in at New River Air Station. My district goes up to the edge of 
Camp Lejeune, and, of course, Congressman Jones and I share a 
lot of common issues and concerns in that area. And that is a 
great report to hear. Thank you for your commitment and work on 
that.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Heinrich.
    Mr. Heinrich. Thank you, Mr. Chairman. And thanks to the 
two of you for being here, for your service, and for being 
willing to come and testify before us today. I think you have 
sort of addressed this, and I just want to make sure I 
understand what you were saying a little bit ago, and sort of 
set to rest some of the issues that we have seen in the media 
regarding equipment in theater. So the intent, as I understand 
it, is when we are talking about things like wheeled vehicles 
that are in Iraq today, that those will be moved out of 
theater. And can you address sort of the path process there? 
They get refurbished and then those that are needed in 
Afghanistan will be transferred there. Is that an accurate 
articulation of what you have represented here today?
    General Amos. Sir, it is close. There is a significant 
amount of equipment that is finding its way from, in our case 
down from Iraq into Kuwait, staged, ready to go, as I talked 
about earlier. A significant amount of that equipment is 
finding its way into Afghanistan to sustain the fight and to 
augment the new 9,000 plus-up of Marines. Just to give you a 
sense for what I am talking about, just a level of effort, when 
we put the Marines on the ground, the 10,600 Marines there, 
about 8 months ago, we put in 44,174 what we call principal end 
items. That can be vehicles. It can be a seven-ton truck. It 
can be an operations tent module. It can be a generator. It can 
be a water purification unit. But we put about 44,000 of those 
major end items in; 22 percent of that number came from stuff 
that was already in Iraq, and we sent that right over there.
    As we transition to this latest plus-up of the 9,000 
Marines, that is about 27,362 principal end items more. Even 
though the force is about the same size that is going in, part 
of what was there before provided the basic structure and some 
of the sustainment kind of things that you need to build a camp 
and that kind of thing. So a little over 27,000 new pieces of 
equipment are going in. Almost 30 percent of that is coming 
from within theater, coming from Kuwait, or it is coming from 
Bahrain, or it is coming from Qatar.
    So all the rest of this stuff will find its way back on 
ships, and just like the Army is going to do, we will refurbish 
every single vehicle that is worthwhile. If it has got a 50 
percent of its life left, then we are going to refurbish that 
thing. But we are sending a big chunk of that into theater. I 
don't know whether that answers--
    Mr. Heinrich. It does. And I just wanted to make sure I 
understood that correctly. And most of the things that are 
being left behind, then, are things that are specific to, and 
would not be, as you mentioned, you know, temporary buildings 
and other things that just don't make sense to move out of 
theater.
    But to shift gears a little bit, General Amos, you spoke 
quite a bit about what you have learned in Iraq over the years 
and how that has changed, the utilization of equipment and how 
things are organized. I have heard a little bit about how the 
physical environment in Afghanistan is even more challenging on 
equipment. But how much of that is analogous in terms of what 
we have learned about making some of those changes as we 
transition to Afghanistan? Is it a very analogous situation, or 
are there a whole new set of things that we need to learn about 
how we equip?
    General Amos. I don't think it is a blank sheet. We are not 
starting from scratch. If I had to give a percentage, and this 
is just my personal opinion with no analysis behind it, I would 
say probably 80, 80 to 85 percent of what we learned in Iraq 
over the last 5 years--not to begin with, but this distributed, 
kind of irregular, nasty warfare we have been in, in a 
counterinsurgency environment, can be applied into Afghanistan.
    The other 20 percent or so is different. It is a different 
government. It is a different language. It is a different 
culture. The tribes don't have the same amount of clout. You 
know, you remember, it was the tribal sheiks that started the 
Awakening and began to make the difference in Iraq. That is 
hard to do in this country. This country is about another 40 
percent bigger; population is bigger. So you are spread out in 
this thing. But the climates are harsher. What we would call a 
road in Iraq truly is almost a little bit bigger than a goat 
trail in Afghanistan. So that is why these MRAP all-terrain 
vehicles, why the Marine Corps has put a new independent 
suspension upon the old MRAPs and stuff, trying to make use of 
them to get them off road.
    But there is a piece of this that doesn't apply. And it is 
the lessons learned: We know how to operate in a 
counterinsurgency environment. We know how to live among the 
people, we know how to protect them. We know how to try to 
segregate the enemy. And that is exactly what we are all trying 
to do.
    But as it relates to equipment and the harshness on the 
equipment, that piece of it is a different animal.
    Mr. Heinrich. Thank you both.
    And I yield back, Chairman.
    Mr. Ortiz. Chairman Spratt.
    Mr. Spratt. Thank you very much for your testimony. I find 
it a little difficult to understand all the components here 
because I think there is some clarification of nomenclature 
that might help. As I understand it, reset means the 
overarching rubric; that is it comprehends a number of 
different things. First of all, it comprehends repair and 
maintenance. That would include routine repair and maintenance 
that is scheduled and expected. It would also include ad hoc 
maintenance for equipment that was not performing. Then we have 
replacement, and then refurbishment, and then routine field 
maintenance, as opposed to depot maintenance. Pretty soon, all 
of these items begin to wash into each other.
    And my interest in it from a budgetary standpoint is how do 
we get our hands around it so we can expect what the 
requirement is going to be here? For the last several years, 
reset has been pretty much of a wild card that shows up in the 
supplemental appropriations. To what extent are you now trying 
to define a number for the Future Years Defense Plan (FYDP) 
that will be the operative number for three to four years to 
come, as opposed to leaving it determined year by year based 
upon the supplemental for that year.
    General Chiarelli. Well, sir, we are very specific in what 
we ask for. I think you know we asked for fewer procurement 
dollars in this year's OCO.
    Mr. Spratt. That tends to be year by year, though. Is there 
any sort of projection of what the cost is likely to be over a 
five-year budgetary period of time?
    General Chiarelli. I don't have that figure in front of me 
right now. I can try to get you that figure.
    [The information referred to was not available at the time 
of printing.]
    Mr. Spratt. My main interest is, do you actually do that? 
Do you develop a number that reflects the fact that you are 
probably going to have more repair, more refurbishment, more 
reset than previously because of the harsh environmental 
conditions you encounter in both theaters?
    General Chiarelli. Yes, sir. But I will tell you that on 
reset, the only equipment that we are resetting is equipment 
that we are bringing back into the United States. What is 
difficult for us to do right now in telling you, in getting you 
that number is understanding what the requirement is going to 
be in the outyears. Just the addition of the 22,000 additional 
soldiers to Afghanistan has changed the amount of equipment 
that, as we draw down in Iraq, that we are going to be able to 
bring back to the United States for full reset. And we will 
reset every single piece of equipment we bring back to the 
States, except for that that are washouts, that are non-
economically feasible to reset. But that is reset to us, and 
that is bringing that equipment back to its original condition.
    Mr. Spratt. Towards the end of your testimony, your 
prepared testimony, you indicated that the request for the 2010 
supplemental was about $11 billion, of which about 30 percent 
is procurement and 70 percent is maintenance.
    General Chiarelli. I am sorry if I misspoke, sir, it is not 
that high in procurement. Yeah, I think it is a little less 
than that in procurement. And that procurement will go for 
vehicles that have to be replaced because of combat losses and 
any kind of recap, which is reset plus bringing that vehicle up 
to the higher standard. Because that vehicle was built at a 
time when we had not added certain things that make it more 
modern, more survivable, more able to fight in the environments 
that we are in.
    Mr. Spratt. If you would both present or prepare for the 
record what the five-year FYDP levels are of operation and 
maintenance (O&M) as well as procurement that comes under the 
rubric that comes under the rubric of reset. If we could have 
those numbers on a five-year basis on the current FYDP basis, 
it would be useful for the record, please, sir.
    General Amos. Sir, I can tell you what the Marine Corps is 
right now. I stated in my statement that the total reset is 
estimated to be $10 billion. That will actually extend beyond 
the FYDP. But it is $8.2 billion for the Marine Corps is the 
prognosis today. For what reset will cost us in the FYDP is 
$8.2 billion. It will take another----
    Mr. Spratt. $8.2 billion all together?
    General Amos. $8.2 billion reset for the Marine Corps.
    The definitions that we live by, Chairman, is reset and 
reconstitution. Refurbishment is part of reset. The purchasing 
new stuff, in some cases, is part of reset. Because when you 
take a look at what reset is allowed, what is allowed in reset, 
it is equipment replacements for items not already included in 
the FYDP; combat losses; replacement of equipment that is given 
to coalition partners; replacement or repair of equipment due 
to original--get it to its original capability because it has 
been worn out. Those are the two things we deal with.
    Reset is combat losses, stuff that is worn out, and will 
get you back to where you were when you started. Reconstitution 
of a unit--and by the way, most of that reset is done in OCO 
dollars. It is supplemental. And the longer we stay in this 
fight, the more that that supplemental, that reset dollars are 
going to slide to the right. So it is not something that you 
can nail down today and say, that is all it is going to be, and 
that is all the requirement. It will continue to change the 
longer we are engaged.
    Reconstitution for the most part is in our baseline 
budgets. And that is procurement of some equipment. That is the 
training. That is the buying of people. That is the buying of 
the people's equipment and that kind--that is a reconstitution. 
Those are the two terms that we deal with in Department of 
Defense (DOD).
    Mr. Spratt. Thank you both very much.
    Mr. Ortiz. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    The world of how these numbers are put together and graphs 
and all this is also a little new to me. But what I am seeing 
here, for instance, in the Army reset-over-time graph that has 
been provided for me, one of the things I am noticing, first of 
all, is that in 2007, you had $16.4 billion; 2008, $16.1 
billion; and then 2009 is $13 billion; and coming down to $11 
billion in 2010. And yet I am not so sure that the rate that we 
are going through equipment has changed all that much. I guess 
my concern is, if this is all supplemental-type of dollars, 
what happens if the supplemental bill doesn't go through this 
year and we end up with another continuing resolution? And to 
what degree are we just postponing this reset over time?
    General Chiarelli. Well, we are in fact providing you with 
the numbers that we need to reset the United States Army 
equipment that comes back to the States. And that number has 
gone down, as indicated. And one of the reasons is we have less 
procurement money in there as we have recapped fewer and fewer 
vehicles. We have not had a requirement to do that. And we have 
seen that number go down. But we feel----
    Mr. Akin. Excuse me, can I interrupt? Because you are using 
terms that I am not sure I understand. Are you saying that what 
you actually feel that you need is less than what you had 
before; therefore, the numbers go down because you don't have 
as much equipment as you had previously? Is that what you are 
saying?
    General Chiarelli. We have not brought as much equipment 
back that required reset.
    Mr. Akin. Okay. So, in other words, we have less equipment 
in States than we had before, and therefore, the reset has gone 
down.
    General Chiarelli. You have an increase in Afghanistan as 
well as a relatively small decrease in Iraq. And in addition to 
that, there has been a requirement to replenish our Army 
preposition stocks.
    Mr. Akin. So, in other words, it is not that we have like 
less pieces of mobile equipment in the Army. It is just that we 
have less of that back in country.
    General Chiarelli. Less of it has come back for reset.
    Mr. Akin. For reset.
    General Chiarelli. For reset. And we would expect, and even 
if the Iraq drawdown goes as promised, our 2010 number is a 
little bit lower, because by the time we get it back over the 
ocean and to the depots, we will be into the next fiscal year. 
And I would expect to see that number increase if those larger 
numbers of pieces of equipment come back home.
    Mr. Akin. Okay. So this number is not the overall measure 
then of how we are doing in keeping up or keeping our equipment 
base where it should be. This is more numbers as to how that 
base is only with equipment in the United States.
    General Chiarelli. And it keeps--that number is used in the 
Army sense to refurbish equipment, equipment that comes out of 
Iraq that has to go into Afghanistan. When we bring it down to 
Kuwait, we make sure we look over that equipment so we are not 
sending a whole bunch of problems to the folks in Afghanistan. 
So they get a piece of equipment within the capability of our 
workers in Kuwait to return that equipment as best as they can 
so that Afghanistan gets a good piece of equipment that they 
can use. That number is also included in there. But that is not 
the same as reset. It is not the same level of a maintenance 
you are going to get if you fully reset a piece of equipment, 
which we do in our depots.
    Mr. Akin. Right. And the depots are more in this country, 
then, when you do that total rebuild kind of thing.
    General Chiarelli. They are.
    Mr. Akin. Now, when you do that, there are two categories 
within that, I gather. One is to reset it to what the equipment 
was like when it left. Another is to add, if there have been 
some modifications or changes to the design, you bring it up to 
the higher level. And you make a distinction between those two. 
But they are still all coming out of supplemental money in the 
past.
    General Chiarelli. A majority of that is. A majority of 
that is; that recap is coming out. We have a certain amount of 
procurement money in there. Now, there are some that it may not 
be in the supplemental, but we will look to our base to get to 
if we feel it needs to be done.
    Mr. Akin. So, just last, if we do not get the supplemental 
through, we do a continuing resolution, will we then have to go 
back to the drawing board as to how we are going to fund this?
    General Chiarelli. We are at this time--we will continue to 
do the work that we need to do, but if we were never to get 
that----
    Mr. Akin. It would be a problem?
    General Chiarelli [continuing]. That would be a huge 
problem.
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Good morning, aloha to both of you. Thank you for your 
attendance here today. I need to make a little bit of a 
preamble, and then I have less of a question than I have a 
comment. And if you can comment in turn, that would be fine. 
But I leave it to your discretion on that.
    General Chiarelli, on page six of your testimony, you have 
referred about resetting and multiyear requirements. Due to 
unprecedented stress placed on our equipment as a result of the 
war, reset funding is required, underlined, in your testimony 
for a period of two to three years beyond the cessation of the 
current conflict, which may be quite extensive. Any reset 
requirements that go unfunded in one year will roll over and 
increase the following year's requirement.
    And then, General Amos, in your testimony, on page eight, I 
think is the one I want to refer to. As our focus shifts to 
greater support for Operation Enduring Freedom (OEF), costs 
will continue to rise over time. Continued congressional 
support of future funding requests will be necessary to improve 
equipment readiness levels across the Corps. Then you go on to 
talk about the future of reset.
    Based on what we now know, we estimate the near term we 
have the $6 billion. You referred to that. And then you revised 
that in your commentary to 10 plus 5, and the plus 5 really 
referring to the table of equipment numbers and also in the 
context of prepositioning equipment. All of this takes place in 
the context, which you mention on page one, of Secretary Gates 
in a commentary in Foreign Affairs, whether it was a speech or 
an article I don't remember, but it was, I believe the subtitle 
of it was ``Balanced Strategy for a New Age.''
    So I bring all of that up in saying with all of this 
forward looking, and then your final statement from you, 
General Amos; we are mindful the Corps cannot rely on 
supplemental appropriations for baseline operations. Now, we 
have talked on the committee, and the Secretary has talked, and 
you folks have talked now about not wanting to rely on 
supplemental budgets. On the other hand, supplemental budgets 
are not going to disappear because we have contingencies that 
we can't anticipate, and that is what a supplemental is all 
about.
    But given the fact that both of you stated you know pretty 
clearly what your requirements are going to be in terms of 
resetting with all of the definitions that you just outlined 
with Mr. Spratt, what I recommend here for your consideration 
is you are going to have to take something up in terms of 
capital budgeting. You have got to separate operational 
requirements from capital asset acquisition. And reset here 
seems to me an ideal way to get to the question of capital 
budgeting, of looking ahead, of getting a budget proposal on 
the table that is multiyear, that you know has to be done 
multiyear.
    You know that you are going to have to make these 
purchases. And to simply come in every year with each Defense 
bill and each Defense appropriations bill hoping you are going 
to be able to get the money for reset in competition with all 
of the other capital asset acquisitions you do year by year 
puts us in the position we are in right now. Every single 
service is now having to scramble internally to have one kind 
of equipment, one kind of a capital asset, a carrier, a Joint 
Strike Fighter, a combat--a new combat vehicle, and they are in 
competition with all the rest of it. We don't want reset in 
this category.
    I am just saying to you, by way of conclusion to my 
remarks, that this is something I put forward for your 
consideration and Secretary Gates' consideration, that a 
capital budget or its equivalent be established where reset is 
concerned so that you don't become dependent on a supplemental 
budget which may or may not come in an appropriate time frame 
to meet your needs.
    Thank you, Mr. Chairman. I know it took some time to do 
that, and I don't know if they can comment or not at this 
point.
    Mr. Ortiz. Go ahead, if you have a comment, either one of 
you. Just go ahead.
    General Amos. Sir, your point is well taken. We are kind of 
stuck because--and you know that----
    Mr. Abercrombie. That is why I brought it up. I believe you 
are stuck. I believe you are now having to set a competition 
between the reset necessities and other capital acquisitions. 
And I will stop with that.
    General Amos. Exactly, sir. And in both our services, and 
really in all four services, the focus is on succeeding in the 
fight that they are in. You know, we have been sent to do this; 
our Nation expects us to succeed, so we are going to do 
whatever is required. And when you do that, there are the 
trade-offs. There are the decisions you are making back home in 
what we don't call it a capital budget, we certainly call it 
our baseline budget. And so now we are robbing Peter to pay 
Paul, and all of a sudden, it just continues to snowball.
    I think if we were at war for three years, you could 
probably hold your breath on the back side and say, okay, we 
are going to figure it out. We actually can do this inside of 
FYDP. But we can't. We have been at this now since we crossed 
the border in March of 2003.
    So your point is well taken, sir.
    Mr. Abercrombie. Thank you.
    General Chiarelli. I would just say your point is well 
taken, and we will look very, very hard at attempting to do 
that.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    We are going to have a series of votes in about six 
minutes, so we have two more members who will have a question.
    Mr. Reyes and then Mr. Taylor.
    Mr. Reyes. Thank you, Mr. Chairman.
    And Generals, thank you for being here this morning.
    I think most of my questions have been asked already, but I 
think it might be useful if we have for the record an 
understanding percentage-wise of how it impacts our training 
capability, because obviously our number one priority is making 
sure that our troops in combat have the best equipment out 
there. But I am curious, as we rotate through what soon will 
be, we hope, only the Afghanistan theater, how are we affected 
percentage-wise in our capability to train? Are we at 50 
percent capability in training? Because for the doctrine of we 
train how we fight, I am a little bit concerned of everything I 
have heard here this morning. I think it is having an impact on 
that ability to do that.
    General Amos. Sir, I will tell you that I can't give you a 
percentage-wise, but this equipment that is now flowing into 
Afghanistan, and we talked about what came from Kuwait, but 
just to give you kind of an order of magnitude on what has come 
from the United States, which is the training piece that you 
are talking about and you are referring to, when we put the 
10,600 Marines in there about 8 months ago, we took 15 percent 
of that 44,000 came from the United States, bases and stations. 
When we took this 27,000-plus, 33 percent of that has come from 
the bases and stations. So it is cumulative.
    And so what we are finding is that we are having less of 
those kind of principal types of pieces of equipment that we 
need to be able to train on back here in the continental United 
States, so that we do what we said to begin with when we came 
in here; have no fear, we are going to have those units fully 
equipped that are forward deployed. We have been able to do 
that in the past and kind of robbing Peter to pay Paul, moving 
things around back home to ensure that those battalions we 
start--Congressman Hunter asked and talked about kind of the 
stand up of the training cycle and cross-leveling.
    Our model is 180 days out we stabilize the unit. And then 
we stabilize it with manpower. And about 120 days out, we try 
to stabilize it with its equipment, so that, as it gets inside 
of 120 days, it is in the final preparatory training phase 
prior to going to Iraq before and now Afghanistan. So it has 
100 percent of what it needs, training opportunity and training 
equipment and people-wise.
    But what has happened, and we have been able to kind of 
hold our breath on all those forces that have just returned and 
those forces that are kind of not in the training cycle yet, 
they haven't entered their 180-day mark. But I will tell you 
what is going to happen now as a result of this latest move is 
there is going to be fewer of that kind of equipment that is 
going to be back in home station. And we are going to find 
ourselves still really trying to juggle that very carefully to 
make sure that those units that get inside that 180-day pre-
deployment training cycle have exactly what they need. And we 
will do that.
    But everybody else, there are going to be hungry children 
back there. And they have to train as well. Their training is 
not nearly as important as those units that are inside the 180-
day window, because they are going to go, but they will 
eventually themselves move inside that 180-day window. But when 
they are on the outside, they are going to be hungry children. 
But I don't have a percentage for you.
    General Chiarelli. Thirty-two percent of the vehicle 
requirements in Afghanistan will come from theater in the 
United States Army. Those are the numbers that I asked for the 
other day; 25 percent of the overall equipment will come from 
theater. So you have a higher percentage of vehicles that will 
come from theater than you do overall equipment, which is at 
about 25 percent. And I asked for that exact figure and how it 
was going to affect the training base back home, and I am told 
it will be anywhere from 5 to 10 percent less vehicles and 
equipment will be available during the training phase back here 
for about 24 to 36 months, is what we are looking at, sir. But 
we believe we can train our soldiers up given the equipment 
sets that we will have back home.
    Mr. Reyes. Thank you. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. Thank both of you gentlemen for being here, and 
General Chiarelli, in particular, for the work you are doing on 
MRAPs to get them to the stateside stations for training.
    I wish I had more time to brag on what you are doing right, 
but I really want to spend the time I have asking you some 
questions, hopefully preventing some problems that may occur as 
we leave Iraq. I was just curious, you know, when a nation is 
$12 trillion in debt, it can't afford to waste anything. And I 
know that, as warfighters, both of you gentlemen's first 
priority is get the best stuff in the hands of the warfighters. 
But I was wondering, to what extent, as we are leaving these 
things behind in Iraq, are you trying to get maybe some folks 
from the National Guard or the State emergency management 
agencies to let them have a look at what we are leaving behind 
to see if they have any use for this?
    And obviously, a guy who is a small town alderman is going 
to look at something differently than you, the warfighter. And 
things that you may think are not worth bringing home, they may 
look at as gold. And again, it is just the difference in 
philosophy. And I very much respect the philosophy you two 
gentlemen have because you are warfighters, and our Nation 
needs you, and I respect you for that. But I do think a guy who 
may be a National Guard major who just came from being an 
alderman back home, from being a highway patrolman back home, a 
hospital administrator back home, he is going to look at some 
of these things differently. And I am just questioning, how are 
you getting different sets of eyes on the same pieces of 
equipment so some of the mistakes that we know we made in 
Panama, in the Philippines, when we left things behind aren't 
being made again in Iraq?
    General Chiarelli. Well, one is the tremendous focus you 
and everybody else has.
    Mr. Taylor. I am several thousands miles away, General.
    General Chiarelli. We instituted this Equipment Review 
Board here two months ago to look at exactly that. And what I 
am told right now is, we will leave behind no piece of 
equipment that in fact is economically--it makes sense to bring 
back economically.
    But you bring up an excellent point about asking some of 
our National Guard formations and the soldiers that are inside 
those National Guard formations to look at some of the things 
we may be leaving behind to get their take on whether they 
would be of value to them. And I will use the Expanded Defense 
Resources Board (EDRB) video teleconference that I have next 
week to tee that up for theater to get another look to ensure 
we are doing exactly what you ask of us, Congressman Taylor.
    Mr. Taylor. I very much appreciate that. And again, I 
supplied that letter to Colonel Glaze. We have been informed by 
some of the State emergency managers that this is something 
that is occurring, and that the Iraqis--and again, from several 
thousand miles away, it sure strikes me as a scam that they are 
asking for what documents did we import these goods with, and 
obviously, we are not issuing importation documents in 2003 
during an invasion or any time since then, since, early on, 
there was no government of Iraq to be dealing with. And so, 
again, whatever you can do on your end to help resolve that I 
would greatly appreciate.
    General Chiarelli. I will immediately tee that up, sir.
    Mr. Taylor. Okay.
    Thank you, Mr. Chairman.
    Mr. Ortiz. I have a question, General Chiarelli.
    If 30 percent of your equipment is not returning to the 
United States for reset, how is the Army or how are you going 
to be able to accomplish your training requirements back home? 
Because you know, at the beginning of the war, this is one of 
the huge problems that we were having, that some of the 
recruits were not getting proper training because they didn't 
have the equipment. Is this going to present a huge problem to 
you?
    General Chiarelli. We believe we can work around it. It is 
32 percent of the vehicle requirements with the increase in 
Afghanistan are being met by vehicles that are currently in 
theater. That is what that says. And they have been in theater. 
We expect it only to be 5 to 10 percent. But we believe, given 
the fact that our units come back and go into the six months of 
reset, that we will be able to immediately move that equipment 
around to ensure that they are properly trained up on post 
camps and stations.
    And one of the great improvements we have made, I believe, 
is getting MRAPs out to the individual post camps and stations 
so we can train our soldiers on driving MRAPs. We don't have 
nearly enough to outfit a combat formation, but we can at least 
give them drivers training. And we have done that with the MRAP 
ATV, too. We asked early on to take some of those early 
vehicles, do the licensing requirement for units deploying over 
here so when units arrived in Afghanistan they could more 
quickly be issued that equipment with less training time 
required in theater.
    In addition to that, we have an unbelievable common trainer 
that we are using that has done just wonderful things for MRAP 
training. So I think, in many ways, we might be in a little bit 
better situation today than we were in before. But there is 
going to be about a 5 to 10 percent decrease in the amount of 
equipment we have got back home for about a 24- to 36-month 
period. That period is as long as it is because when the 
equipment comes back, before we can reissue it to units, it 
will have to go through a reset program.
    Mr. Ortiz. See because another area that concerns me is the 
equipment that we need for the pre-stocking stocks throughout, 
you know, reset. Are we going to be able to provide the 
training equipment and then be able to give the pre-stocking 
areas to be filled up for them to have the right equipment? 
This is the thing that worries me.
    General Chiarelli. And, sir, I will tell you, some of that 
32 percent is coming out of Army prepositioned equipment. So we 
are going into the APS stocks, which in reality are theater 
stocks, but that is part of that 32 percent. That is why it is 
a 5 to 10 percent decrease back in the United States. But we 
really believe we will be able to work this through smart 
management of our assets.
    Mr. Ortiz. Yes, sir. And I just have one last question. 
When did replacement of equipment given to coalition partners 
and foreign military sales become part of the definition of 
reset?
    General Chiarelli. I didn't mean to infer that it did, sir. 
I just meant to infer that, in order to get the Iraqi army up 
to the level that we need to, when we have a FMS case that 
comes out of Iraq, because that system can be very, very slow, 
and we know that the Iraqi army must be equipped in order for 
us to leave, we are following every single one of those. We are 
not in fact providing the Iraqis any equipment that would in 
fact impact Army readiness. The only equipment would be excess 
equipment. And then we have certain requirements to come to 
Congress in those cases to make sure that we report to you 
before any of those transfers are made.
    Mr. Ortiz. Thank you.
    General Amos, would you like to make a further statement 
before we shut down this hearing?
    General Amos. Sir, I want to thank you for your continued 
support. You really do, we have had a good discussion on 
supplementals and OCO, and I think the thing I would like to 
leave with to this committee, Mr. Chairman, would be, again, 
the war in Afghanistan will be fought well by young men and 
women fully equipped and fully trained. I want you to know that 
and have confidence in that.
    But there is this continuing drain of equipment back home 
to do this. So there are two things that come to mind that are 
troublesome. One, eventually it will begin to impact home 
station training. It has not yet. And my prognosis is, because 
of the way we train in the Marine Corps, it probably won't, 
even in the future over the next year. We will probably be able 
to manage it. The micromanaging of that will be very, very, 
very time-consuming, and it is going to be an all Marine force 
effort.
    The second piece is our ability to be able to go someplace 
else in the world and do the Nation's bidding. I think that 
would be something that--and I get asked the question what 
would you do? We would cobble it together just like we did when 
we put the Fifth Marine Regiment together just out of just a 
skeleton and went to Inchon, but it was very, very painful. So 
that is kind of the danger part of the home station piece just 
being eaten at. And that is why supplementals, we have had the 
discussion on, should you, or shouldn't you? And I will be 
honest with you, without it, without being able to replace 
those vehicles that are being combat lost and worn out, we 
would find ourselves further in the hole and less capable than 
we are today.
    Thank you.
    Mr. Ortiz. We appreciate your service.
    Another thing that worries me is that our National Guard, 
our Reserves, I have visited some of them, and some of the 
equipment has been left behind for the active Army. You know, 
but I know you are doing your best, and we are going to have to 
do with what we got. And we want to be sure that this committee 
provides you what you need. There has been some good questions 
asked by the members, and there have been some good responses.
    And now I would like to allow, for those members who 
couldn't be here with us today, for them to be able to submit, 
you know, questions for the record.
    We do not have any other questions?
    Thank you so much for joining us today. And this hearing 
now stands adjourned.
    [Whereupon, at 11:42 a.m., the subcommittees were 
adjourned.]


      
=======================================================================




                            A P P E N D I X

                           December 10, 2009

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           December 10, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. TAYLOR

    General Amos. No. As we have been retrograding our equipment over 
the past year, we have not seen any evidence of this documentation 
requirement in Iraq. [See page 56.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           December 10, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. Who will make the decision about what equipment in Iraq 
will be reset into the Army (or Marine Corps) and what will be provided 
to the Iraqis? What factors figure into that decision?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. What has been done to increase depot capacities in 
preparation for the potentially huge influx of equipment from Iraq or 
the need to surge reset equipment into Afghanistan?
    To what extent have the Army and Marine Corps developed strategies 
for workloading their depots over the next 5 to 10 years to satisfy 
reset requirements?
    Based on these workloading plans, what confidence do the Army and 
Marine Corps have that they will be able to obligate the reset funds 
they have requested in fiscal year 2010 and beyond?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. What plans are there for the replenishment of Army and 
Marine Corps pre-positioned stocks through reset?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. We understand that at present there are no depot-level 
facilities for MRAPs in the United States. What is being done to deal 
with this? When do you anticipate having a national repair capability 
and strategy for MRAP sustainment?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. At what point will DOD move all funding for equipment 
into the base budget, given that contingency operations have been going 
on for several years and it is becoming increasingly difficult to 
distinguish between equipment requirements related to base and 
contingency operations' needs? What are the risks of continuing to fund 
reset, and in the Army's case, the majority of the depot maintenance 
account, through contingency operations funding?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. Operations overseas in harsh conditions affect 
equipment's long-term condition and expected useful lifetime. For 
purposes of projecting the equipment that the Army has on hand and will 
have for the next several years, the Army assumes that equipment now 
being used overseas will be returned to the United States and fully 
rehabilitated as part of its reset program.
    a. Has the Army assessed the percentage of equipment that is now in 
Iraq and Afghanistan that may not be able to be rehabilitated (wash-out 
rate) and the effect that this rate may have on its longer-term plans 
for equipment availability?
    b. Has the Army performed a cost/benefit analysis on the relative 
advantages of returning used equipment to the United States for repair 
and rehabilitation as opposed to purchasing new equipment that may have 
a longer service life?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. The Army is implementing a rotational force readiness 
model, called the Army Force Generation Model or ARFORGEN. The cycle is 
intended to increase unit readiness over time from when a unit returns 
from deployment for rest and resetting through training phases until it 
is available to deploy. The Army recognizes that implementation of this 
model will affect the way it equips the force to increase their 
readiness over time to reach deployment readiness. Currently, the 
Army's requirements processes still reflect the Army's acquisition goal 
of providing all units all the equipment they need for their missions 
at all times, and this assumption drives the Army's Acquisition 
Objective (AAO). However, officials acknowledge that units in a 
rotational force generation cycle may need less than 100 percent of 
some equipment requirements in the early phases of their training cycle 
but may need more than 100 percent of some items to account for 
situations such as having some equipment unavailable because of 
maintenance, for example.
    What plans does the Army have to adapt its current equipment 
strategy as it resets the force and implements the ARFORGEN readiness 
model?
    For what types of equipment does the Army anticipate needing 
greater than 100 percent of current requirements and why?
    For what types of equipment does the Army anticipate needing less 
than 100 percent of requirements?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. How does the theater communicate and coordinate 
equipment retrograde and reset requirements to the Army and Marine 
Corps? How much equipment do the Army and Marine Corps plan to reset in 
fiscal year 2010?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. What determinations went into your Overseas Contingency 
Operations reset budget request for fiscal year 2010? How will the 
fiscal year 2010 budget be executed?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. How long will reset continue and what do you expect the 
annual recurring cost to be? How long do you anticipate funding for 
reset will be paid for by supplemental or Overseas Contingency 
Operations funding only? How will the Army and Marine Corps prioritize 
resources between your many initiatives and programs, including reset 
and future modernization investments?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. How do non-deployed systems figure into the Army's and 
Marine Corps' reset programs?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. What is the Army's and Marine Corps' approach to reset 
management and planning? How do the Army and Marine Corps determine 
which equipment will be repaired, recapitalized, or replaced? What 
percentage of equipment being reset in fiscal year 2010 will be 
repaired? What percentage will be recapitalized? What percentage will 
be replaced?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. What life-cycle extensions and additional capabilities 
will result from recapitalization? By how much does recapitalization 
extend the life of equipment?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. How do you respond to the GAO's criticism that the Army 
and Marine Corps are sacrificing short-term equipment needs are for 
long-term modernization?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. Can the industrial base meet the demand the Army and 
Marine Corps have for maintenance, recapitalization, and new 
production, particularly in light of the reduction of forces in Iraq 
and the increased forces in Afghanistan?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. Does reset need to be accelerated? If so, what could the 
Army and Marine Corps do to accelerate resetting the force? Is 
additional depot capacity needed?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. What is the impact of service support contracts on Army 
and Marine Corps equipment reset?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. What is the relationship between the drawdown of 
military forces and contractor personnel in Iraq to the Army's and 
Marine Corps' ability to execute equipment retrograde and reset? That 
is, how reliant are you on specific levels of military or contractor 
personnel in theater to support your requirements for equipment 
retrograde or reset?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. Please explain the goals of the Army's reset pilot 
program. What lessons were learned and how have they been applied to 
redeploying units? What has been the practical impact of the pilot 
program on how units reset themselves at home station?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. How does the Army balance operational equipment needs 
versus Title 32 responsibilities assigned to the reserve components in 
terms of reset prioritization?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. The Army has spent more than $70 billion over the past 
four years on equipment reset. Why, then, are some Army units reporting 
C-4 readiness because of equipment shortages or training shortfalls due 
to lack of equipment?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. Where will the Army find enough mission-capable 
equipment to support operations in Iraq and Afghanistan? Where will it 
come from? Will the Reserve Component be a source?
    General Chiarelli. [The information was not available at the time 
of printing.]
    Mr. Ortiz. Who will make the decision about what equipment in Iraq 
will be reset into the Army (or Marine Corps) and what will be provided 
to the Iraqis? What factors figure into that decision?
    General Amos. The decision about what equipment in Iraq will be 
returned from theater to reset into the Marine Corps will be made by 
MARCENT with Headquarters Marine Corps based on operational 
requirements for OEF. OEF operational requirements will also factor 
into the final decision on what equipment is available to source to the 
Government of Iraq.
    The Joint Staff directed, under an operational planning team 
construct, the Services review their capability to transfer defense 
articles to the Government of Iraq in an effort to facilitate a 
responsible drawdown of U.S. forces. All Services were in attendance in 
the 8 month-long planning process, to include the Army National Guard.
    On 6 Oct 09, the FY10 NDAA, Section 1234 was passed. This will 
allow the Services the ability to direct up to $750 M worth of 
equipment to the GOI in FY10 and FY11. SECDEF will not execute the 
authority provided in FY10 NDAA Section 1234 until 30 days after the 
``Report on the Transfer of Defense Articles and the Provision of 
Defense Services to the Militaries and Security Forces of Iraq and 
Afghanistan'' has been submitted to Congress. The report is currently 
in staffing. At this time, no Marine Corps equipment has been 
transferred to coalition forces under the Section 1234 legislation.
    If directed by the Secretary of Defense, the Marine Corps would 
only transfer equipment that does not pose a risk to the Marine Corps 
or would impact the Marine Corps Reserve.
    Mr. Ortiz. What has been done to increase depot capacities in 
preparation for the potentially huge influx of equipment from Iraq or 
the need to surge reset equipment into Afghanistan?
    To what extent have the Army and Marine Corps developed strategies 
for workloading their depots over the next 5 to 10 years to satisfy 
reset requirements?
    Based on these workloading plans, what confidence do the Army and 
Marine Corps have that they will be able to obligate the reset funds 
they have requested in fiscal year 2010 and beyond?
    General Amos. Marine Corps Logistics Command, Maintenance Centers 
in Albany Georgia, and Barstow California increased production in 2008 
and executed 4.4 million direct labor hours. In 2009, we estimated 5.45 
million direct labor hours in preparation for a potentially huge influx 
of equipment. We hired additional personnel for these years in 
consonance with section 2472 of Title 10, U.S.C., with the expectation 
that the workload, and therefore the workforce, would remain throughout 
reset. However, CY09 workload did not materialize due to equipment 
sourcing requirements to support the Afghanistan troop levels. As a 
result, Maintenance Centers Albany and Barstow were forced to decrease 
the work force in order to meet this lessened workload requirement. Now 
that the decision has been made on the deployment and timeline of 
additional USMC forces to Afghanistan, we can now expect that depot 
maintenance will be performed on approximately 6,100 retrograded items 
and field maintenance on approximately 10,000 items during FY-10. Only 
items that have a continued requirement within the Marine Corps will be 
reset. The Marine Corps is confident that it will fully obligate depot 
maintenance reset funds in FY-10 and beyond.
    Mr. Ortiz. What plans are there for the replenishment of Army and 
Marine Corps pre-positioned stocks through reset?
    General Amos. As equipment is retrograded from Iraq and reset 
through either maintenance or procurement actions, it will be issued to 
Marine Corps activities (e.g. Home Station Units, Maritime 
Prepositioning Force (MPF), Marine Corps Prepositioning Progam-Norway 
(MCPP-N) Supporting Establishment Units) according to their 
prioritization as established by the Commandant of the Marine Corps. 
Therefore, prepositioning stocks will be replenished through reset 
based on the availability of reset equipment and relative priority of 
distribution as determined by the Commandant of the Marine Corps.
    Mr. Ortiz. We understand that at present there are no depot-level 
facilities for MRAPs in the United States. What is being done to deal 
with this? When do you anticipate having a national repair capability 
and strategy for MRAP sustainment?
    General Amos. The Marine Corps has been assigned as the Primary 
Inventory Control Activity (PICA) for the Cat I and Cat II Cougar MRAP. 
As such, we solicited and received a Depot Source of Repair (DSOR) 
designation through the Joint Depot Maintenance Activity Group (JDMAG) 
for the Marine Corps Depot facilities at Albany and Barstow. We also 
solicited and received DSOR assignment for the Buffalo Cat IIIs fielded 
to the Marine Corps. The Marine Corps is currently conducting a proof-
of-principle (POP) on the Buffalo Cat III to develop the National 
Maintenance Work Requirement (NMWR). Additionally, Marine Corps 
Maintenance Centers Albany and Barstow both plan to start maintenance 
production on CAT I, II and III MRAPs by 1st Qtr FY11.
    Mr. Ortiz. At what point will DOD move all funding for equipment 
into the base budget, given that contingency operations have been going 
on for several years and it is becoming increasingly difficult to 
distinguish between equipment requirements related to base and 
contingency operations' needs? What are the risks of continuing to fund 
reset, and in the Army's case, the majority of the depot maintenance 
account, through contingency operations funding?
    General Amos. Equipment needs resulting from Overseas Contingency 
Operations (OCO) have not been in the baseline because both Congress 
and OSD have generally agreed that war related costs should be part of 
the Service's OCO submissions. No determination has been made to move 
away from this funding strategy as long as we are engaged in OCO 
activities. There is more risk associated with moving Reset 
requirements in the baseline than continuing to fund in the OCO 
requests because our ability to recover from this current conflict 
would come at the expense of the modernization necessary to meet future 
threats.
    Mr. Ortiz. How have Marine Corps reset requirements changed as a 
result of additional personnel and equipment purchases?
    General Amos. As personnel have been added to the Marine Corps as 
part of the 202K initiative, associated equipment to outfit those 
additional Marines is also identified as an element of increasing our 
end strength. Such additional equipment is distinct and separate from 
reset requirements of existing forces. Equipment purchases to support 
Overseas Contingency Operations are used to fill deficiencies in two 
areas: replacement of equipment due to combat loss/increased usage due 
to high operational tempos, and equipment purchases above established 
table of equipment allowances to enable units to perform missions 
different from what they were originally intended to perform. Reset 
requirements are constantly changing to meet the constantly changing 
needs of equipment replacement due to combat loss/wear and tear from 
increased usage due to high operational tempos. Additionally, reset 
requirements are impacted when home station equipment is sent overseas 
to fulfill immediate emerging equipment needs due to mission analysis 
of our forces going into combat. As our forces continue to adapt to 
meet the enemy, equipment needs also continue to change
    Mr. Ortiz. At what capacity are Marine Corps depots operating? If 
not full capacity, should they be?
    General Amos. USMC depot capacity is elastic. The Marine Corps 
depots have the ability to expand and contract as necessary to meet 
workload requirements. There are multiple options to adjust depot 
capacity including overtime shifts, multiple shifts, hiring of contract 
and/or temporary labor, hiring full time additional labor or 
contracting with commercial vendors. We can also utilize capacity at 
other Service depots. Currently, we have the ability to expand if 
necessary.
    Mr. Ortiz. What lessons has the Marine Corps learned from Iraq and 
Afghanistan regarding its unit table of equipment requirements that 
apply to reset? How have those lessons been applied and what is the 
impact?
    General Amos. Lessons learned from 8 years of major combat have led 
the Marine Corps to change the baseline it uses for the ground 
equipment requirement. This change--as well as critical funding to 
reset and reconstitute the force--will posture the Corps for tomorrow's 
challenges and ensure the Corps' standing as the nation's expeditionary 
force in readiness.
    The old metric for the ground equipment requirement, which worked 
well in peacetime, did not work well in war when equipment requirements 
changed rapidly and new units were created.
    The benefits of using a new baseline are as follows:

    <bullet>  Provides more accurate measure of the ground equipment 
requirement

        <bullet>  Supply readiness is now calculated against the unit's 
        stable, actual requirement vice a floating metric.

        <bullet>  It enables commanders to conduct a more accurate and 
        useful assessment of their ability to accomplish the mission.

    <bullet>  Demonstrates stronger linkages between force structure, 
materiel readiness, operational readiness, and funding.

        <bullet>  Better linkage between equipment fielding and 
        improved unit readiness.

        <bullet>  Easier to articulate our equipment requirement 
        shortfalls to Congress.

    <bullet>  Facilitates better acquisition decisions and cross-
leveling of equipment based on requirements.

    The impact of applying the lessons learned on Marine Corps 
readiness:

    <bullet>  Deployed forces still have the equipment required to do 
their mission.

    <bullet>  There has been a drop in equipment readiness levels for 
non-deployed forces.

    Mr. Ortiz. What new equipment needs have emerged for Afghanistan 
and how will these new needs affect Marine Corps reset? How has the 
Marine Corps dealt with the evolution of personal protective equipment 
through the reset process?
    General Amos. With regard to the first part of this question, 
``What new equipment needs have emerged for Afghanistan and how will 
these needs effect Marine Corps reset?'' we continually work with our 
deployed units via the Urgent UNS process, lessons learned reviews, and 
our deliberate combat development process. Meeting the immediate needs 
of units deployed to Afghanistan will certainly have an effect on our 
reset, although the full effect is difficult to determine since the 
length and level of our commitment there is not fully known. We 
continue to take risk in the readiness of our home station units by 
drawing their equipment, and by redirecting equipment that was 
scheduled for reset from Iraq to Afghanistan. As far as response to 
urgent needs goes, since February 2008 we have received known cost 
estimates totaling $490.2M from units deployed to Afghanistan. We also 
have received known-cost estimates totaling $58.1M from units inbound 
to the theater. Most of these in-bound U-UNS address shortfalls 
generated by growth of the OEF MAGTF to a MEF(Forward).
    Examples of equipment needs identified in OEF U-UNS include:

    Persistent Surveillance. Family of systems to enhance surveillance 
capabilities at Forward Operating Bases and other areas where there are 
no co-located coalition forces. Twice requested for quantity increases 
by OEF forces and is now MARCENT's number one priority to field. 
Recently approved U-UNS of 121 additional systems at cost of $147M; 
delivery pending.

    Mobile Armored Trauma Bay. Newly developed armored, mobile facility 
that provides the ability to conduct forward resuscitative care as 
close to the point of injury as possible. First 6 units were delivered 
to theater. Cost for 8 units is $8.2M.

    Scalable Plate Carriers. Provides commanders with a scalable body 
armor option to maximize individual ballistic protection balanced with 
mobility as dictated by mission requirements. This capability has been 
increased twice by U-UNS request to outfit to forces deploying to OIF 
and OEF. The most recent request delivers 17,636 units to OEF at a cost 
of $20.7M.

    Robots. Source of multiple U-UNS requests for counter IED 
capability fielded to EOD, engineer and infantry forces. Five different 
OEF centric U-UNS requests have been approved since July 2009 providing 
an increase of 71 units across two variants for surveillance and IED 
interrogation at a USMC cost of $9.2M. 51 additional units were 
obtained as Theater Provided.

    Mr. Ortiz. What additional capability and capacity, if any, is 
needed at Blount Island to accommodate Marine Corps reset?
    General Amos. Blount Island Command is already operating as an 
integral part of the MCLC Field Level (Intermediate Maintenance) Reset 
Plan. Blount Island Command supports the Marine Corps' strategic 
prepositioning programs. Their seasoned contractor workforce possesses 
the skill sets to perform less than depot-level repairs on nearly the 
full range of USMC equipment retrograded from the CENTCOM AOR. The 
limiting factor at Blount Island continues to be the lack of suitable 
facilities to improve the infrastructure capacity for the reset effort. 
In 2006, the Marine Corps identified the need to accelerate 10 planned 
MILCON projects to address this concern.
    Mr. Ortiz. What guidelines are Marine Corps operational commanders 
given for assessing equipment and who makes the decisions on what to 
repair and what to dispose?
    General Amos. The Marine Corps' overall reset strategy was 
developed with the technical advice of the equipment Total Life Cycle 
Managers based on current and future requirements for Marine Corps 
equipment. This was the initial guide used for determining what 
equipment will be reset. If a requirement exists, then maintenance 
experts from the Marine Corps operating forces and the Marine Corps 
Depots conduct a thorough technical serviceability inspection of each 
individual item of equipment to determine if it is repairable or if the 
costs to repair exceed the benefit and the item must be disposed.
    Mr. Ortiz. How does the theater communicate and coordinate 
equipment retrograde and reset requirements to the Army and Marine 
Corps? How much equipment do the Army and Marine Corps plan to reset in 
fiscal year 2010?
    General Amos. Retrograde requirements are identified back to the 
Marine Corps in CONUS via Marine Corps Logistics Command Forward in the 
MARCENT AOR. All major items of Marine Corps equipment are transferred 
to Marine Corps Logistics Command Forward, which then coordinates the 
physical movement of equipment either back to CONUS for reset or to 
Afghanistan to meet operational requirements. Retrograded equipment is 
assessed and placed into one of five reset categories: depot 
maintenance candidate, field maintenance candidate, no reset action 
required, i.e. immediately available for re-issue, or disposal 
candidate. Equipment disposed of will be for one of two reasons: the 
item is beyond economical repair, or the item is obsolete and no longer 
a part of the Marine Corps inventory. Items disposed of due to 
obsolescence will be reset through new procurement of replacement 
equipment.
    Prior to the decision to deploy additional forces to OEF, the 
Marine Corps planned on performing Depot maintenance on up to 12,241 
retrograded items and field maintenance on 24,137 items in FY-2010. Due 
to the diversion of equipment to support expanded operations in 
Afghanistan, we now expect that depot maintenance will be performed on 
approximately 6,100 retrograded items, and field maintenance on 
approximately 10,000 items in FY-2010. Only items that have a continued 
requirement within the Marine Corps will be reset. Items that are now 
obsolete due to procurement of upgraded/improved equipment will not be 
reset.
    Mr. Ortiz. What determinations went into your Overseas Contingency 
Operations reset budget request for fiscal year 2010? How will the 
fiscal year 2010 budget be executed?
    General Amos. The Marine Corps uses a Reset Cost Model to evaluate 
OIF/OEF equipment status and requirements and to identify cost factors 
and strategies by assessing historical operational tempo, equipment 
demand, combat losses, and degradation to equipment on a two year 
basis. Current year requirements are then developed and scrubbed for 
executability prior to inclusion in the OCO request. The Fiscal Year 
2010 budget is expected to be fully executed.
    Mr. Ortiz. How long will reset continue and what do you expect the 
annual recurring cost to be? How long do you anticipate funding for 
reset will be paid for by supplemental or Overseas Contingency 
Operations funding only? How will the Army and Marine Corps prioritize 
resources between your many initiatives and programs, including reset 
and future modernization investments?
    General Amos. Reset efforts will continue as long as the Marine 
Corps is fighting in Overseas Contingency Operations and an annual 
recurring cost is not easily captured (nor accurate) as our 
requirements have continued to, and will continue to, change as long as 
we are engaged in contingency operations. Reset requirements will 
continue to be requested via OCO submissions until the current conflict 
is concluded or a change in policy is implemented. The Marine Corps 
prioritizes Reset and future modernization requirements the same way as 
any baseline budget--we build and submit a fiscally balanced, 
defendable, and executable budget based on the warfighting and 
readiness priorities as directed by the Commandant of the Marine Corps. 
Even in a fiscally constrained environment, Marines will always be 
equipped with the best equipment that the Marine Corps can provide.
    Mr. Ortiz. How do non-deployed systems figure into the Army's and 
Marine Corps' reset programs?
    General Amos. Marine Corps forward deployed forces have the 
resources and equipment needed to train for and conduct operations but 
it has come at the expense of home stations. Equipment from OIF that 
was scheduled to go through a depot overhaul has now been redirected to 
support OEF efforts, thus accelerating the stress on equipment and 
having to globally source an expanded Equipment Density List has 
created additional equipment shortfalls and lowered home station 
readiness. Reconstitution efforts are being supported in our baseline 
requests as they do not fall under the current definition of Reset.
    Mr. Ortiz. What is the Army's and Marine Corps' approach to reset 
management and planning? How do the Army and Marine Corps determine 
which equipment will be repaired, recapitalized, or replaced? What 
percentage of equipment being reset in fiscal year 2010 will be 
repaired? What percentage will be recapitalized? What percentage will 
be replaced?
    General Amos. The Marine Corps manages its reset liability and 
plans reset actions via individual ``reset strategies'' specifically 
designed for each type of equipment item in theater. Each strategy is 
developed by the equipment item's life cycle manager in coordination 
with the Marine Corps' requirements determination branch. Equipment 
strategies are designed around five possible categories: procure new; 
depot-level maintenance/modernization; field-level maintenance; no 
reset required; and obsolete/disposal. Each strategy is designed based 
on an item's age, estimated life-span, estimation of its usage in 
theater, and finally the Marine Corps long-term requirements for that 
item. In general, equipment whose repair cost exceeds 65% of the new 
procurement cost is replaced. For equipment repair costs that fall 
between 20% and 65% of the new procurement cost, the equipment is sent 
for depot-level maintenance for repair. For equipment that does not 
exceed 20%, maintenance is performed at the field level where capable. 
Many items being retrograded will have a ``no reset'' strategy because 
they are obsolete and no longer a part of the Marine Corps inventory. 
Items disposed of due to obsolescence will be reset through new 
procurement of replacement equipment or modernization. Current 
estimates project that approximately 47% of the equipment repaired in 
2010 will be repaired either at a depot or field level maintenance 
facility, and 36% of the returning equipment will have to be replaced. 
The remaining 18% includes items for which no reset action is 
necessary. This includes theater-specific items which have no intended 
usage beyond OIF, or items that can be put directly back into the 
Marine Corps inventory with no maintenance actions.
    Mr. Ortiz. What life-cycle extensions and additional capabilities 
will result from recapitalization? By how much does recapitalization 
extend the life of equipment?
    General Amos. The Marine Corps does not use the term 
recapitalization as it relates to returning equipment to zero hours, 
zero miles condition. For the response to this question the definition 
of recapitalization is the process to procure a new system, or 
enhancing a system as part of rebuilding the system or modernization.
    The Marine Corps uses the Service Life Extension Program (SLEP) and 
the Reliability, Availability, and Maintainability/Rebuild to the 
Standard (RAM R/S) to ensure the Marine Corps attains the full program 
life of the equipment and implements upgrades to equipment 
capabilities.
    The current operational tempo creates challenges in maintaining 
optimal readiness levels on legacy systems resulting in additional 
resource requirements. In order to mitigate this challenge, the Marine 
Corps seeks to expedite Initial Operation Capability (IOC) of 
replacement items, conduct continuous product improvement through 
modernization, and continue the SLEP to extend the life of aging ground 
equipment assets in the inventory.
    By how much does recapitalization extend the life of equipment?
    The following are prime examples of systems used in OIF and the 
results to extend the life of equipment.
    The Amphibious Assault Vehicle (AAV) SLEP and RAM R/S were designed 
to extend service life and improve combat readiness and effectiveness 
of the legacy fleet until fielding of a replacement vehicle. The 
Program Service Life is until the Expeditionary Fighting Vehicle (EFV) 
is fully fielded in 2025 which equates to 42 years. The average age of 
the AAV is 35 years. While the EFV is being developed to replace AAVs 
and remains the Commandant's top ground combat priority, the projected 
pace of EFV fielding will result in significant quantities of AAVs 
remaining in service until at least 2025.
    The LAV fleet was fielded in the first half of the 1980s with an 
expected end-of-service date of 2008. The LAV SLEP upgrade was designed 
to extend the service life of the legacy fleet to 2015 by replacing 
obsolete or soon to be obsolete components in the legacy vehicle. As a 
result of the initiation of OIF, a second upgrade was made to 
incorporate additional survivability into the platform in response to 
the new threats. With the release of this new configuration, the LAV 
A2, the end-of-service date was extended to 2025. The LAV A2 upgrade 
was accomplished to add more capability to the platform at the same 
time as the platform was undergoing a complete refurbishment (via the 
Specified Overhaul and Repair statement of work) at the Marine Corps 
depots. This approach justified the end-of-life extension to 2025. With 
the replacement of combat losses as well as the new platforms procured 
as the result of a force restructure increases, leaves the average age 
of the a LAV at 23 years. The Program Service Life is now 42 years.
    Mr. Ortiz. How do you respond to the GAO's criticism that the Army 
and Marine Corps are sacrificing short-term equipment needs are for 
long-term modernization?
    General Amos. The Marine Corps employs a documented, standardized, 
and flexible reset strategy designed to meet both current operational 
requirements and long-term reconstitution strategies. First, regarding 
the formulation of budget requirements, Programs and Resources (P&R) 
develops requirements for both short-term and operational needs and 
longer term reset needs without prejudice or constraint beyond that 
levied by OSD and Navy guidance.
    Second, tactical level execution of reset, most notably equipment 
distribution, is also a comprehensive process involving the evaluation 
of short term deployment needs and long term modernization efforts. The 
Commandant of the Marine Corps prioritizes equipment and manning 
priorities in a joint message to all Marine Corps commands. This 
document serves as the basis for equipment distribution prioritization 
conducted by the Marine Corps's Strategic Ground Equipment Working 
Group (SCEWG). This group is entrusted specifically with the priority 
distribution of equipment across Marine Corps units and initiatives. 
The SGEWG works diligently to ensure that equipment availability for 
all units and over the long term to meet our modernization goals. 
Predeployment training (Mojave Viper, Desert Talon, and Mountain 
Warrior exercises) is afforded the #1 equipping priority. Likewise, in 
generalized equipping, operational requirements (OIF, OEF) are given 
higher priority than longer-term reset initiatives (such as 
prepositioning reconstitution or filling supporting establishment 
shortfalls). Furthermore, units preparing to deploy are afforded higher 
priority than non-deploying units per the Commandant's message. Most 
importantly, all Marine Corps units are 100% equipped upon arrival in 
theater.
    The Marine Corps understands that every unit experiences change as 
it participates in the unit life cycle process, i.e., return from 
deployment (rest/refit/reset) predeployment training (individual and 
collective combat skills/mission essential tasks/core competencies)--
deployment. The Marine Corps recognizes the inherent differences in an 
individual unit's maturity and readiness as a reflection of where it is 
in this deployment preparation cycle. The SGEWG is the Marine Corps' 
way of meeting each unit's equipment needs based on where it is in the 
deployment/predeployment life cycle process. Regarding the operations 
of the SGEWG, in the general priorities, the Marine Corps does not 
identify individual units, but treats every unit in accordance with its 
individual needs and challenges commensurate with its continual 
development as a cohesive, combat-ready unit as it prepares for 
deployment. In the event there is a priority conflict between a 
specified or general priority, the requirement is returned to Plans, 
Policies, and Operations Division (PP&O) and a decision is made on 
where we can best accept risk. Discussions on risk are coordinated 
between all affected commanders before a decision is made. The SGEWG is 
the venue for working those matters of prioritization and distribution. 
The SGEWG and prioritization list is an inherently flexible tool for 
assessing distribution and recommending where to accept and how to 
mitigate risk to the force as a whole.
    Consequently, the Marine Corps has a concrete and comprehensive 
plan of equipment distribution explicitly targeting short-term 
operational requirements over longer-term reset initiatives, making the 
overarching theme of the report factually inaccurate.
    Mr. Ortiz. Can the industrial base meet the demand the Army and 
Marine Corps have for maintenance, recapitalization, and new 
production, particularly in light of the reduction of forces in Iraq 
and the increased forces in Afghanistan?
    General Amos. The Marine Corps expected to receive a large amount 
of equipment from Iraq to be repaired and reset but as operational 
commitments have grown overseas, much of the expected equipment has not 
materialized, and is being retained to support other operations. This 
means that the Reset workload is not as large as expected. The size of 
the industrial workforce constantly flexes to meet workload needs and 
to best utilize taxpayer dollars, the workload requirement is 
continually assessed and adjusted as appropriate, to include workforce 
cuts when requirements have decreased. Should there be an increase in 
the workload; expedited hiring processes are in place to rapidly expand 
the workforce as required.
    Mr. Ortiz. Does reset need to be accelerated? If so, what could the 
Army and Marine Corps do to accelerate resetting the force? Is 
additional depot capacity needed?
    General Amos. The Marine Corps reset does need to be accelerated, 
however due to a combination of circumstances, this will not be 
achieved through the maintenance of equipment returning from Iraq. The 
Marine Corps was poised to accelerate reset at our maintenance centers, 
however, because of the requirement to rapidly build up forces in 
Afghanistan in the midst of retrograding forces and equipment from 
Iraq, the Marine Corps transferred significant amounts of equipment 
directly from Iraq to Afghanistan without a full reset action. For that 
reason, capacity at our depots does not need to be increased further. 
Without an adequate Depot Maintenance Float Allowance (DMFA), we can't 
conduct robust PEI rotation. Therefore, the maintenance reset action 
will be delayed until MARCENT releases equipment from OEF into the 
depot system. Increasing procurement resources and procuring new 
equipment however, is an effective way to accelerate reset of home 
station forces.
    Mr. Ortiz. What is the impact of service support contracts on Army 
and Marine Corps equipment reset?
    General Amos. Service support contracts in the MARCENT AOR are used 
to repair equipment en route to or in Afghanistan. This will diminish 
reset workload in CONUS but gets the required equipment to the war 
fighter faster.
    Service support contracts in CONUS, are used to support equipment 
reset. This compliments our depot or organizational unit organic 
maintenance capabilities.
    Mr. Ortiz. What is the relationship between the drawdown of 
military forces and contractor personnel in Iraq to the Army's and 
Marine Corps' ability to execute equipment retrograde and reset? That 
is, how reliant are you on specific levels of military or contractor 
personnel in theater to support your requirements for equipment 
retrograde or reset?
    General Amos. The majority of USMC equipment in OIF has been turned 
in for retrograde and is either in CONUS or located in specific 
retrograde pipeline nodes. MARCENT and LogCom have worked as a team 
during this time to evaluate and implement the proper mix of military 
and contractor personnel to perform care and storage, and to expedite 
equipment movement. As long as USMC equipment remains in Iraq, there 
will be a requirement for this mix of military/contractor personnel, 
corresponding to the type and amount of equipment. This is determined 
by COMUSMARCENT aided by the planning and support of MARCORLOGCOM.
    Specific contractor personnel, such as MRAP, communications, AT/FP 
(GBOSS), etc. are rare in their expertise and crucial to the smooth 
extraction and retrograde of forces and equipment. Thus far, they have 
been a critical cog as II MEF FWD executes a near flawless retrograde 
of equipment from Iraq. These critical contractors have also been 
instrumental in the smooth reception, staging, washdown, and 
manifesting of equipment for shipment to CONUS as well as supporting 
the receipt and support of equipment redirected to OEF
    Mr. Ortiz. Please provide background on the logistics teams that 
have been sent into theater to assess Marine Corps equipment reset 
needs in light of potential increased equipment requirements in 
Afghanistan.
    General Amos. The Marine Corps has tasked forward deployed 
operational commanders with assessing the condition of equipment being 
retrograded in order to determine what equipment could be categorized 
as fully mission capable and redeployed into Afghanistan for combat 
operations. Additionally, the Marine Corps exercised a standing MOA 
with the Army Material command Forward (AMC) Forward to have less than 
depot repairs made on select tactical wheeled vehicles to support the 
increased Afghanistan requirement. Finally, the Marine Corps assigned 
additional maintenance personnel to Marine Corps Logistics Command 
(Forward) to make minor repairs on equipment in theater in order to 
satisfy increased Afghanistan equipment requirements.
    Mr. Ortiz. How, if at all, is the Marine Corps' readiness affected 
by the continued delay in the construction of new vessels for the 
Maritime Prepositioning Force (Future)? Specifically, what impact will 
the delay in construction of the MPF(F) amphibious assault ship, the 
LHA(R), and the Mobile Landing Platform have on the service life of the 
existing MPF ships or the risk associated with the Marine Corps' 
ability to generate Marine Expeditionary Brigades capable of conducting 
major combat operations?
    General Amos.

    USMC Power Projection Doctrine
    While the basic building blocks of combat power are frequently 
expressed as a Marine Expeditionary Brigade (MEB), it is the Marine 
Expeditionary Force (MEF) around which the USMC's combat planning 
revolves. The MEF provides the full complement of ground and aviation 
warfighting capability, together with the logistics support, to sustain 
the force. Doctrinally, and as stipulated in Combatant Commander war 
plans, the Marine Corps is tasked to fight in major combat operations--
which require a 3.0 MEB force. While the first two of these MEBs are 
delivered by Assault Echelon shipping, the third MEB, the reinforcing 
and supporting element, is provided by the afloat prepositioning force 
in what is envisioned to be the MPF(F) with all of its vertical and 
surface maneuver and sustainment capabilities.

    Assault Echelon Lift Requirements and Current Capabilities
    The Chief of Naval Operations (CNO) and Commandant of the Marine 
Corps (CMC) have determined that the requirement for shipping to 
support a 2.0 Marine Expeditionary Brigade (MEB) lift is 38 total 
amphibious assault ships as stated in a 7 January 2009 letter to HASC, 
SASC, HAC-D, and SAC-D committee chairmen. Assuming that the current 
operational availability for these ships is maintained over the long 
term, a 38 ship inventory will ensure there are at least 34 ships 
available at any time. This 34 ship inventory best fits the load 
requirements in terms of vehicle square, cargo cube, aviation deck 
spots and personnel necessary to support the timely offload and 
sustainment of a 2.0 MEB force should it be called upon to conduct 
amphibious operations. Understanding this requirement, and in light of 
the fiscal constraints with which the Navy is faced, the SecNav, CNO 
and CMC stated in the same 7 January 2009 letter to HASC, SASC, HAC-D, 
and SAC-D committee chairmen that the Department of the Navy would 
sustain a minimum of 33 total amphibious ships in the assault echelon. 
This 33 ship force accepts risk in the arrival of combat support and 
combat service support elements of the MEB but has been adjudged to be 
adequate in meeting the needs of all parties within today's fiscal 
limitations.
    With this basis in mind, the Navy currently has a total of 31 
Assault Echelon ships in commission, which does not meet the standard 
for providing 2.0 MEBs of amphibious lift.
    As directed by the FY 2009 NDAA, the Navy moved funding for the two 
MPF(F) LHA(R)s in the FY09 President's Budget from the MPF(F) budget 
line to the Assault Echelon budget line to mitigate risk, increase 
operational flexibility, and provide a more robust aviation capability 
within this force thus enabling the 2.0 MEBs to be sourced from both 
the East and West coasts. This move was reflected in the Navy's FY10 
program submittal to the Office of the Secretary of Defense. Though 
integral to reinforcing and supporting the USMC's 2.0 MEB Assault 
Echelon force, MPF(F) MEB is not considered a part of the Assault 
Echelon since it does not have a capability to conduct forcible entry.

    Maritime Prepositioning Ship (MPS) Squadron Capabilities and 
Enhancements
    The Marine Corps estimate is that the loss of the MPF(F) LHA(R), 
MLP, and the Large, Medium-Speed Roll-on/Roll-off (LMSR) ships does not 
have a direct impact on the service lives of existing MPF ships. 
However, it is expected that a full recapitalization of legacy MPS 
squadrons must occur in the 2020s. By that time, existing MPF AMSEA and 
WATERMAN ships will have reached the end of their expected service 
lives. In anticipation of that eventuality, the Marine Corps, as part 
of a wider Department of the Navy effort, is seeking key enhancements 
to our current MPS program to give legacy Maritime Prepositioning Ship 
squadrons additional at-sea vehicle and equipment transfer and 
selective offload capabilities in the near term, and to emphasize 
capabilities that will guide development of MPF (Future) squadrons and 
seabasing capabilities over the long term.
    We are pursuing specific enhancements that provide for increased 
battle force engagement, irregular warfare, and security force 
assistance capabilities, as well as improved selective offload and in-
stream offloading options in austere locations.

    (1) Incorporating MPF(F)-designated T-AKE's 12-14, previously 
funded in FYs 09 and 10, into our current MPS squadrons, thereby 
enabling pallet-level stowage of approximately 25 percent of MPS 
sustainment stocks for at-sea selective offload to support exercises, 
experimentation/demonstrations, and contingency operations.

    (2) Development and operational testing of a revised Mobile Landing 
Platform MLP to enable at-sea transfer of vehicles, personnel, and 
supplies from MPS LMSRs to Landing Craft Air-Cushioned (LCAC) for 
delivery ashore.

    (3) Technology insertion and integration of sea state-3 capable 
ramps, pendulation controls system cranes, and LCAC interface features 
within Joint High-Speed Vessels, MPS LMSRs, and Roll-On/Roll-Off 
Discharge Facility(s) (RRDF), respectively.

    These enhancements will increase the Department of the Navy's 
ability to engage, respond, and project power across the range of 
military operations.

    Conclusion
    The loss of MPF(F) LHA(R), MLP, and LMSR lift capacity 
significantly jeopardizes the established Marine Corps 3 MEB, MEF-level 
doctrine for sustained major combat operations forcible entry 
requirements and does not enable maneuver and sustainment operations 
from the seabase as conceptually envisioned. Effective MEF-level 
vertical and surface maneuver capabilities are necessary to provide the 
full complement of warfighting capabilities and longer-term sustainment 
capacity.
    The loss of the MPF(F) MEB's MEF-level reinforcing and supporting 
capabilities will require continued reliance on today's Maritime 
Prepositioning Ships program which possesses less overall operational 
speed and employment flexibility, when compared to MPF(F), and poses 
greater operational risk.
    While potential enhancements to today's MPS squadrons would provide 
vastly improved capabilities for in-stream offloading and delivery of 
personnel, supplies, and equipment ashore, such enhancements would not 
fully enable legacy MPS squadrons to provide the full range and depth 
of vertical and surface maneuver capabilities necessary to reinforce 
and support 2.0 MEB assault echelon forces during MEF-level forcible 
entry operations from the seabase.

                                  <all>

</pre></body></html>
